U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                     The Office of Justice Programs’
                 Implementation of the Hometown Heroes
                      Survivors Benefits Act of 2003


                                      March 2008




                                      I-2008-005
                               EXECUTIVE DIGEST


INTRODUCTION

       The Office of the Inspector General (OIG) conducted this review to
examine how the Office of Justice Programs (OJP) has implemented the
Hometown Heroes Survivors Benefits Act of 2003 (Hometown Heroes Act)
and how it processed claims submitted under the Act. The Act
established death benefits for public safety officers, such as police
officers and firefighters, who die of heart attacks or strokes in the line of
duty or within 24 hours of a triggering event while on duty. 1 We
assessed the timeliness of OJP’s processing of claims filed under the Act,
OJP’s determination of whether or not to award benefits, and the
reasoning behind these determinations. We conducted the review in
response to concerns expressed by several members of Congress that
OJP was taking too long to process claims submitted under the Act and
that OJP’s narrow interpretation of terms found in the Act – in particular
the phrases “nonroutine stressful or strenuous physical activity” and
“competent medical evidence to the contrary” – might be resulting in a
high rate of claims denials.

       The Hometown Heroes Act includes a statutory presumption that
public safety officers who die from a heart attack or stroke following a
“nonroutine stressful or strenuous” physical public safety activity or
training exercise died in the line of duty. However, under the Act the
statutory presumption that heart attacks or strokes following stressful or
strenuous physical activity are line-of-duty-related deaths can be
overcome with “competent medical evidence to the contrary.” This
means that an officer’s pre-existing medical conditions that contribute to
a heart attack or stroke may render the claim for benefits not
compensable.

      Hometown Heroes Act claims are processed through OJP’s Bureau
of Justice Assistance (BJA), which administers the Public Safety Officers’
Benefits (PSOB) Program. The PSOB Office reviews the documentary


       1  Enacted on December 15, 2003, the Hometown Heroes Act amended the
Public Safety Officers’ Benefits Act of 1976, which had established a program to provide
death and education benefits to spouses and children of public safety officers who die in
the line of duty. Through an amendment in 1990, Congress also provided disability
benefits to officers permanently and totally disabled by an injury incurred in the line of
duty. See 42 U.S.C. § 3796.


U.S. Department of Justice                                                            i
Office of the Inspector General
Evaluation and Inspections Division
evidence submitted by Hometown Heroes Act claimants and public safety
agencies, contacts the claimants and agencies for additional
documentation and information, and writes initial determinations to
approve or deny claims. 2 OJP’s Office of the General Counsel (OGC) is
responsible for conducting a second review of Hometown Heroes Act
claims and providing assessments of any legal issues. Both offices must
concur in their evaluation of a claim before a final approval or denial can
be issued to the claimant. From December 2003 through the end of
November 2007, OJP received 291 Hometown Heroes Act claims and
issued 112 determinations – 65 denials and 47 approvals, with
$12,889,452 paid to claimants. 3

RESULTS IN BRIEF

       As of November 29, 2007, OJP had completed only half of the
Hometown Heroes Act claims it received in the first 3 years after passage
of the Act. Some of the claims that remained pending as of November
2007 had been filed as long ago as 2004. One of the reasons for the
delay in processing claims was the fact that OJP took 33 months to issue
final regulations implementing the Act, during which time OJP developed
a backlog of 201 claims. However, even after OJP issued the necessary
regulations in September 2006, it processed claims slowly. Processing
was slow because most claims had been submitted without required
documentation, OGC’s legal reviews of claims were time consuming, and
decisions on some claims were delayed because OJP could not obtain
needed pathology reviews.

      In the fall of 2007, OJP implemented several initiatives designed to
expedite its processing of claims and by the end of our review had
reduced the backlog of 201 claims to 99, for a total of 179 claims
pending determination.


         2 Because the PSOB Program is a claims program, individuals must meet

eligibility and evidentiary requirements to receive benefits. A claimant and the public
safety agency involved in a claim are responsible for providing OJP with documentary
evidence that demonstrates the claim meets the program’s criteria and is compensable.
OJP uses the term “determination” to mean the written decision that outlines the facts
of the public safety officer’s activities and death, a statement of whether the claim is
approved or denied, and the reasoning for the decision.

       3 The amount of the one-time death benefit, currently $303,064, is determined
by the date of the public safety officer’s death. All approved claims are awarded the
entire amount of the benefit. Since October 15, 1988, the benefit has been adjusted
each year on October 1 to reflect the percentage of change in the Consumer Price Index.


U.S. Department of Justice                                                           ii
Office of the Inspector General
Evaluation and Inspections Division
       We also found that OJP initially denied many claims because,
according to OJP, evidence provided by the claimants did not prove that
the decedents’ activities, such as installing smoke detectors or manning
a station house, were “stressful” or “strenuous” as required by the Act.
Some denials were based in part on OJP’s narrow legal interpretation of
the definition of “nonroutine” activities. In October 2007, the BJA issued
policy memoranda clarifying that any response to an emergency call
should be considered “nonroutine” for purposes of analyzing claims
under the Act. The Director of the PSOB Program Office stated that this
step has since led to more claims being approved and faster claims
processing.

       The following sections of this Executive Summary describe in more
detail the OIG’s findings.

Timeliness of Claims Processing

      OJP took a long time – from December 2003 to September 2006 –
to update the PSOB Program regulations to implement the Hometown
Heroes Act. During that time, OJP developed a backlog of 201
Hometown Heroes Act claims.

      According to OJP, several factors affected its ability to update the
program regulations, including the time it took to consult with public
safety organizations and medical experts and the time required for
Department of Justice and Office of Management and Budget reviews of
the proposed regulations. OJP said it had to incorporate not only the
Hometown Heroes Act into the PSOB Program regulations, but 18 other
congressional amendments to the program and numerous court
decisions made in the 30-year period since the original regulations were
issued. During this almost 3-year period, no claims were processed
because OJP could not make claim determinations until the final PSOB
Program regulations were issued.

      The final PSOB Program regulations became effective on
September 11, 2006. As of that time, 201 claims were pending.
However, we found that OJP’s processing of claims was slow even after
the regulations were in place. As of November 29, 2007, 179 Hometown
Heroes Act claims were pending OJP’s final determination, including 16
claims that had been pending for over 3 years. While the PSOB Office
had taken some steps to prepare claims for processing during the time
the regulations were being developed, these initial steps did not enable
OJP to make timely determinations after the regulations were in place.


U.S. Department of Justice                                              iii
Office of the Inspector General
Evaluation and Inspections Division
      We examined how long it took OJP to process Hometown Heroes
Act claims after regulations were issued and found that the processing
times for the 112 claims completed by OJP ranged from 2 to 12 months,
with a median processing time of 10 months. Overall, the 112 completed
claims represented 38 percent of the 291 claims OJP received from
passage of the Act in December 2003 through November 2007.

      We found that three factors contributed to the length of time
required to process claims after the regulations were issued. First,
almost all of the claims were submitted without all required information
and documentation. According to the PSOB Office staff, claimants often
have difficulty preparing complete claims because of insufficient
guidance, the time and expense of acquiring documentation, and in some
cases limited assistance from the public safety agencies involved in the
claims. As a result, the PSOB Office officials said they had to request
additional information from claimants and agencies, which often added
months to the process.

       Second, the reviews of claims by OJP’s OGC have been lengthy.
We reviewed Hometown Heroes Act claims and the database that records
activity on claims and estimated that OGC reviews took a median of 50
days, with some reviews taking more than 180 days. The length of the
review was extended because of certain inefficient internal practices by
the OGC, such as allocating PSOB claims across numerous attorneys
and sometimes requesting additional documentation and evidence that
was not necessary for making a determination on whether a claim was
compensable. Additionally, because OGC has no formal method of
recording information requests in the case files, the PSOB Office received
duplicative information requests from OGC attorneys. Further, OGC
attorneys made numerous inconsistent edits to the draft determinations,
adding time to the claims review process. Finally, we noted that OGC
had no established timeliness standards for conducting its reviews of the
claims.

      Third, some Hometown Heroes Act claim determinations were
delayed pending the independent medical pathology review required for
claims that OJP determined had met all other PSOB Program
requirements. Initially, the Armed Forces Institute of Pathology (AFIP)
provided these reviews, but in May 2007 the AFIP informed OJP that it
could not continue doing so because the war in Iraq increased its




U.S. Department of Justice                                             iv
Office of the Inspector General
Evaluation and Inspections Division
workload from the military services. 4 Consequently, processing for some
claims was delayed until OJP identified a new pathology contractor.

OJP Initiatives to Improve the Claims Review Process

      Toward the end of our review, the BJA and OJP’s OGC
implemented several initiatives to address some of the deficiencies that
have contributed to the lengthy claims review process. These initiatives
included providing additional guidance to claimants and changing
internal procedures to speed the claims review process. During fiscal
year (FY) 2007, OJP’s first year of processing claims after the final
regulations were issued, OJP issued 72 determinations. In contrast,
during the first 2 months of FY 2008, OJP issued 40 determinations.
The increased number of determinations issued suggests that some of
the new policies and procedures have improved claims processing. 5
These initiatives are discussed below.

Better Guidance for Claimants and Agencies

       The BJA, with input from public safety officer associations, is
developing a manual about the Hometown Heroes Act for claimants and
public safety agencies (“The Attorney General’s Guide to the Hometown
Heroes Act”). According to the PSOB Director, the manual will
consolidate all claim application instructions in a single document that
contains detailed information on the Hometown Heroes Act and the
criteria used to evaluate claims. Additionally, the manual will translate
the legal language of the statute and program regulations into more
understandable terms.


       4  The AFIP is an agency of the Department of Defense that provides pathology
services to the federal government and pathology consultation, education, and research.
The AFIP has a workforce of over 820 personnel, including over 120 pathologists and
other scientists.

       5 We could not fully determine the initiatives’ effects on the process because

they were implemented near the conclusion of our field work. However, OJP provided
the OIG with an update to the numbers of Hometown Heroes Act claims processed and
pending in an e-mail in March 2008. As of March 26, 2008, OJP had received a total of
303 claims, of which 213 had been decided, 1 had been withdrawn by the claimant, and
89 were pending a determination. OJP had approved 122 claims and denied 91 claims,
8 of which were overturned on appeal to approvals. The backlog of claims OJP
developed during the time the program regulations were developed was reduced from
201 to 27.




U.S. Department of Justice                                                         v
Office of the Inspector General
Evaluation and Inspections Division
Local Assistance State Teams

      In 2006, the BJA began awarding grants to firefighter and police
associations to develop the Local Assistance State Teams. The teams are
deployed when a firefighter or police officer dies in the line of duty to aid
the decedent’s family, the public safety agency, and colleagues with
assistance with funeral arrangements, counseling, and submitting PSOB
claims.

New Approach to Required Documentation

       In October 2007, the BJA stopped requesting 10 years of medical
records from Hometown Heroes Act claimants unless evidence in a case
file suggests something other than a line-of-duty activity caused the
decedent’s heart attack or stroke. This change will reduce the time spent
requesting and waiting for records. Also, OJP no longer requests
documentation on death benefits from claimants in states and localities
that do not offer death benefits for heart attacks and strokes.

“12-a-Week” Initiative

       The PSOB Director started a “12-a-week” initiative in August 2007
to work through the pending Hometown Heroes Act claims and to
accelerate the claims process overall. Under the initiative, the PSOB
Office staff and the Director meet weekly to determine whether case files
for the 12 oldest Hometown Heroes Act claims include all the
documentation necessary to make a decision and then forward those
claims to OJP OGC for a legal review. According to the PSOB Director,
processing is not delayed if a case file lacks documents or information
that is not material to the approval or denial of a claim.

Outreach Administrative Contractor

      In September 2007, the PSOB Director hired an Outreach
Administrative Contractor to handle some of the most time-consuming
tasks associated with PSOB claims processing, such as contacting
claimants and public safety agencies for additional information and
documents. According to the PSOB Director, the contractor’s
performance of the outreach tasks should allow the PSOB Office staff to
concentrate on analyzing case file evidence and rendering
determinations.




U.S. Department of Justice                                                vi
Office of the Inspector General
Evaluation and Inspections Division
PSOB Case Management System

       In October 2007, the PSOB Office began the first phase of
implementing a new case management system. The PSOB Office’s
previous database did not allow for detailed searches of case file
information, reminders for follow-up actions, or a direct link to scanned
documents that accompany claims. Unlike the old database, the new
system allows OGC attorneys reviewing PSOB claims access to view
entire case files in the system and to add their review notes for the PSOB
Office staff.

OJP’s Decisions on Hometown Heroes Act Claims

      As of November 29, 2007, OJP had approved 47 claims for benefits
and denied 65 of the 112 claim reviews that it had completed. 6 In 10 of
the 65 denied claims, OJP determined that the application did not
contain the evidence to show that the claim met basic eligibility criteria
established in the PSOB Act or the Hometown Heroes Act (such as that
the decedent be a public safety officer, be on duty in the 24 hours prior
to death, or have performed line-of-duty activities). Therefore, OJP did
not further evaluate the 10 claims for evidence of “nonroutine stressful or
strenuous” physical activity or “competent medical evidence to the
contrary.”

       In assessing the 55 other denied claims, OJP reviewed the claims
against the Act’s requirement that the fatal heart attack or stroke
followed “nonroutine stressful or strenuous” physical public safety
activities or training exercises. In our review of these claim
determinations, we observed that OJP focused more on the stressful and
strenuous nature of the physical activities or training exercises in which
decedents had engaged and less on how frequently or routinely the
activities were conducted. 7


       6 Claimants may appeal denied claims through a three-tiered process: OJP

Hearing Officers, the BJA Director, and the federal courts. During the appeals process,
claimants may present additional documentation and have witnesses testify on their
behalf. See Appendix III for a description of the appeals process.

       7  To be considered “stressful” the physical activity must pose or appear to pose
“significant threats or hazards” or involve “reasonably foreseeable risks of such threats
or hazards” and provoke or cause “an unusually-high level of alarm, fear, or anxiety.”
To be considered “strenuous,” the activity must “entail a high level of physical exertion.”
See 42 U.S.C. § 3796 (2006).




U.S. Department of Justice                                                             vii
Office of the Inspector General
Evaluation and Inspections Division
        OJP concluded that these 55 claims were non-compensable
because the evidence did not show that the public safety officers engaged
in “stressful or strenuous physical activity or training.” None of the 55
denied Hometown Heroes Act claims cited “medical evidence to the
contrary” as a basis for denial. However, our review concluded that OJP
narrowly interpreted the Act for at least 19 of the claims denied during
its first year of claims processing. Specifically, OJP denied 19 claims in
which officers had responded to emergency calls based partly on a
criterion that was later changed by a policy memorandum issued in
October 2007. After October 2, 2007, OJP changed its policy to consider
any response to an emergency call to be “nonroutine.” The PSOB
Director attributed the subsequent approval of some claims to the policy
change.

      The reasons for the 65 denials, taken from information in the claim
determinations, are summarized below.

OJP’s Reasons for Denying Claims

Cases That Did Not Meet the Basic Criteria of the Act

       Of the 65 denials, 10 were cases in which OJP concluded that the
applications failed to show that the claims met the basic criteria
established in the PSOB Act or the Hometown Heroes Act. Five of these
claims failed to show evidence that the decedent was a public safety
officer, four failed to show evidence that the officer was on duty in the 24
hours prior to the heart attack or stroke, and one failed to show evidence
that the death met the requirements for “line of duty.” 8




        8 The PSOB Program defines “line of duty” activity as an “activity or an action

that [the public safety officer] is obligated or authorized by statute, rule, regulation,
condition of employment or service, official mutual-aid agreement, or other law, to
perform . . . under the auspices of the public agency he serves, and such agency (or the
relevant government) legally recognizes that activity or action to be so obligated or
authorized . . . . [The activity] is performed (as applicable) in the course of law
enforcement, providing fire protection, engaging in rescue activity, providing emergency
medical services, or training for one of the foregoing, and such agency (or the relevant
government) legally recognizes it as such.” See 28 C.F.R. § 32.3 (2006).




U.S. Department of Justice                                                            viii
Office of the Inspector General
Evaluation and Inspections Division
Cases Involving Officers Who Did Not Respond to a Call

        Another 27 of the 65 denied claims involved officers who were on
duty but did not respond to a call and did not engage in a qualifying
activity as required by the Hometown Heroes Act. 9 The officers in several
of these 27 claims had engaged only in administrative activities, such as
filling out paperwork or attending meetings, or ancillary activities, such
as routine maintenance on department vehicles, marching in a parade as
a member of the department, installing smoke detectors for citizens, or
manning the station house. OJP denied other claims in this category
because it concluded that the officers’ activities, while not administrative
or ancillary, nonetheless did not involve “non routine stressful and
strenuous physical activity” as required by the regulations. Examples of
activities in these claims include correctional officers who made rounds
and assisted in food service but did not respond to an emergency and
officers who conducted regular patrols or routine traffic stops.

Cases Involving Officers Participating in Training

       Nine of the 65 denied claims involved public safety officers who
died after training activities that did not meet criteria in the Hometown
Heroes Act. Some of these officers attended training sessions in a
classroom that did not involve physical activity or had died while
engaging in physical fitness training (such as lifting weights or walking
on a treadmill) that did not simulate an emergency response activity. In
other cases, OJP denied claims because an officer prepared the training
or observed participants in a training session but did not engage in any
training activities.

Cases Involving Officers Who Responded to a Call: Potentially Narrow
Interpretation of the Act

       In 19 of the 65 denied claims, OJP concluded that a public safety
officer had suffered a heart attack or stroke after responding to a call but
before arriving at the scene, after responding to a call that was a false
alarm, after responding to a call and not conducting any law enforcement
or emergency activities at the scene, or after responding to a call and not
performing any activity that involved great physical exertion at the scene.
However, OJP evaluated these claims using a narrow interpretation of

       9 Qualifying activities include law enforcement, fire suppression, rescue activity,
hazardous material response, emergency medical services, disaster relief activity, or
other emergency response. See 42 U.S.C. § 3796 (k)(1)(A) (2006).


U.S. Department of Justice                                                            ix
Office of the Inspector General
Evaluation and Inspections Division
the Act. OJP determined that the claims did not have enough evidence
to show that the officer’s response to the emergency call involved
“nonroutine stressful or strenuous physical activity” or that the officers’
activities after responding to the call qualified as “law enforcement, fire
suppression, rescue, hazardous material response, emergency medical
services, prison security, disaster relief or other emergency response
activity.” 10 Responses to emergency calls were not automatically defined
as “nonroutine,” and OJP evaluated the evidence in each claim to
determine if the officers’ emergency response activities met the
requirements of the Hometown Heroes Act and PSOB Program
regulations.

       However, in October 2007, the BJA issued a policy memorandum
that stated that any response to an emergency call should be considered
“nonroutine” for purposes of analyzing claims eligibility. 11 The
memorandum also stated that claims were to be reviewed based more on
how stressful or strenuous an activity was and less on the frequency
with which it was performed. Further, the revised policy stated that no
activity was to be considered routine based solely on the public safety
agency’s description of the activity as being “routine” or “ordinary.” The
PSOB Director told us that the policy was instituted as a result of the
experience gained after a year of processing Hometown Heroes Act
claims. These 19 denied claims were decided prior to issuance of the
October 2007 memorandum.

      The PSOB Director told us that she intended to call each claimant
whose Hometown Heroes Act claim had been denied prior to November 1,
2007, and whose claim was not already in the appeals process, to inform
them of the new policy. In addition, OJP said it will waive its standard
deadline for filing appeals to accommodate these claimants if they choose
to appeal the initial decision.

      According to the PSOB Director, the change in policy defining a
response to an emergency call as “nonroutine” has resulted in more
approved claims. Prior to the October 2007 policy clarification, OJP
denied 58 of 72 claims and approved only 14; during the first 2 months

       10   42 U.S.C. § 3796 (2006).

       11  OJP OGC considers this policy direction a “rebuttable presumption.”
Domingo Herraiz, Director, Bureau of Justice Assistance, Public Safety Officers’
Benefits Program Policy Memorandum, re: “Nonroutine Stressful or Strenuous Physical
Activity,” October 2, 2007.




U.S. Department of Justice                                                     x
Office of the Inspector General
Evaluation and Inspections Division
of FY 2008 (after the policy change), OJP issued another 40
determinations, approving 33 claims and denying only 7. 12

CONCLUSION AND RECOMMENDATIONS

      OJP took 33 months after passage of the Hometown Heroes Act to
develop implementing regulations and initially was slow in processing
claims. As a result, OJP had completed only 112 (38 percent) of the 291
Hometown Heroes Act claims it had received as of November 29, 2007.
In addition, OJP’s first year of processing claims under the Act
highlighted several inefficiencies in the review process. These included
lengthy legal reviews of claims and multiple requests for additional
documents by OJP OGC, no established timeframes for attorney reviews,
no formal method of recording attorneys’ requests for information,
incomplete claims submissions, and delayed pathology reviews that
prevented timely assessments of claims.

      In the fall of 2007, the BJA implemented new policies and actions
designed to expedite the claims review process, and early evidence
suggests that processing times have improved. For example, while OJP
issued determinations on 72 Hometown Heroes Act claims in all of
FY 2007, in the first 2 months of FY 2008 it issued determinations on 40
claims.

      Our review of OJP’s completed claim determinations showed that
OJP initially denied most claims based on an evaluation of the stressful
and strenuous nature of the physical activity or training exercise. While
many of the denials met the intent of the Hometown Heroes Act, in some
cases OJP used a narrow definition of what qualified as “nonroutine” for
evaluating and denying the claims. In October 2007, OJP issued a policy
change that implemented a broader definition that considers all
emergency calls as “nonroutine.” Since this policy change, more claims

        12 Our review of the claims determinations indicated that the increase in

approvals after October 2007 may not be solely attributable to the policy change. Only
8 of the 33 approved claims (and none of the 7 denied claims) involved officers
responding to a call that had similar circumstances to the 19 denied claims mentioned
above. These eight approved claims involved officers who suffered a heart attack or
stroke before arriving at the scene, after responding to a false alarm, or after arriving on
the scene and not conducting any activities. The remaining 25 approved claims had
evidence showing that the public safety officer engaged in law enforcement, fire
suppression, rescue, hazardous material response, emergency medical services, prison
security, disaster relief, or other emergency response activities that were considered
“nonroutine stressful or strenuous” and were not based on the broader application of
the definition in the October 2007 memorandum.


U.S. Department of Justice                                                              xi
Office of the Inspector General
Evaluation and Inspections Division
have been approved, and OJP has notified claimants of the changed
standards to allow them to appeal their denials.

       To further improve management of the Hometown Heroes Act
claims process, we recommend that the BJA and OJP OGC take the
following actions:

       1. The BJA should finalize and issue the “Attorney General’s Guide
          to the Hometown Heroes Act.”

       2. OJP OGC staff attorneys should be required to use the PSOB
          Office’s new case management system to record their case
          notes, requests for documentation, and other case-related
          communications with the PSOB Office.

       3. OJP OGC should establish definitive performance timelines for
          attorneys’ reviews of PSOB claims to facilitate claims
          processing.




U.S. Department of Justice                                             xii
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


ACRONYMS

BACKGROUND ......................................................................................1

PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW .......13

RESULTS OF THE REVIEW.................................................................15

        OJP’s Processing of Hometown Heroes Act Claims .......................15

        OJP’s Decisions on Claims Processed ..........................................29

CONCLUSION AND RECOMMENDATIONS ..........................................37

APPENDIX I:           The Hometown Heroes Survivors Benefits Act
                      of 2003 .....................................................................39

APPENDIX II:          PSOB Death Claim Forms.........................................41

APPENDIX III:         PSOB Program Appeals Process ...............................45

APPENDIX IV:          Demographics From Completed Hometown
                      Heroes Act Claims ....................................................46

APPENDIX V:           Staffing of the PSOB Program ..................................48

APPENDIX VI:          Factors That Affected the Update of the PSOB
                      Program Regulations ................................................50

APPENDIX VII: Public Safety Officers’ Activities as Described
              in Claim Determinations..........................................52

APPENDIX VIII: The Office of Justice Programs’ Response ..............65

APPENDIX IX: OIG’s Analysis of the Office of Justice
             Programs’ Response ..................................................78




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      ACRONYMS



  AFIP            Armed Forces Institute of Pathology
  BJA             Bureau of Justice Assistance
  EMT             Emergency medical technician
  FEMA            Federal Emergency Management Agency
  FY              Fiscal year
  LAST            Local Assistance State Teams
  OGC             Office of the General Counsel
  OIG             Office of the Inspector General
  OJP             Office of Justice Programs
  OMB             Office of Management and Budget
  PSOB            Public Safety Officers’ Benefits




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  BACKGROUND


       The Department of Justice (Department) Office of Justice Programs
(OJP) administers the Public Safety Officers’ Benefits (PSOB) Program
through its Bureau of Justice Assistance (BJA). At the request of several
members of Congress, the Office of the Inspector General (OIG) examined
the processing of death claims submitted under the PSOB Program for
officers who died of heart attacks and strokes. Based on complaints
from claimants, the members of Congress expressed concern to the OIG
that OJP’s interpretation and application of some program criteria were
resulting in a high rate of claims denials. 13 In addition, the members
raised concerns that OJP’s processing of claims was not timely.

Public Safety Officers’ Benefits Program

       In 1976, Congress passed the Public Safety Officers’ Benefits Act
creating the PSOB Program to provide death and education benefits to
spouses and children of public safety officers who die in the line of duty.
In 1990, the PSOB Act was amended to provide disability benefits to
officers permanently and totally disabled by an injury incurred in the line
of duty. Public safety officers are defined as:

       •   state, local, or federal law enforcement officers;
       •   state, local, or federal firefighters;
       •   rescue squad and ambulance crew members;
       •   chaplains; and
       •   employees of the Federal Emergency Management
           Agency (FEMA) and employees of state, local, and tribal
           emergency management and civil defense agencies who
           work in cooperation with FEMA when performing
           official, hazardous duties related to a declared major
           disaster or emergency.

Hometown Heroes Survivors Benefits Act of 2003

      The PSOB Program allowed a one-time payment of benefits for
deaths involving traumatic injuries caused by an external force, but not
for deaths caused by heart attacks or strokes that resulted from line-of-
duty activities. To make benefits available to the survivors of public
safety officers that die from heart attacks and strokes, Congress enacted
      13 The criteria were “nonroutine stressful and strenuous physical activity” and

“competent medical evidence to the contrary.”


U.S. Department of Justice                                                         1
Office of the Inspector General
Evaluation and Inspections Division
the Hometown Heroes Survivors Benefits Act (Hometown Heroes Act) in
December 2003. 14 This Act amended the PSOB Act to include benefits
for the survivors of public safety officers who die of heart attacks or
strokes in the line of duty or within 24 hours of a triggering effect while
on duty. The Hometown Heroes Act included a statutory presumption
that public safety officers who die from a heart attack or stroke following
a “nonroutine stressful or strenuous” physical public safety activity or
training died in the line of duty for the program’s purposes. However,
under the Act, the statutory presumption that heart attacks or strokes
following stressful or strenuous physical activity are line-of-duty-related
deaths can be overcome with “competent medical evidence to the
contrary.” This means that an officer’s pre-existing medical conditions
that contribute to a heart attack or stroke may render the claim for
benefits not compensable.

      To be eligible for PSOB Program benefits under the Hometown
Heroes Act, claimants must provide evidence that all of the following
requirements are met:

        •    The decedent was a public safety officer.

        •    The public safety officer died as the direct and proximate result
             of a heart attack or stroke.

        •    While on duty, the public safety officer either (1) engaged in
             line-of-duty activity that included law enforcement, fire
             suppression, rescue activity, hazardous material response,
             emergency medical services, disaster relief activity, or other
             emergency response activity or (2) participated in a formal
             training exercise.

        •    The line-of-duty activity or participation in a formal training
             exercise involved nonroutine stressful physical activity or
             nonroutine strenuous physical activity.

        •    The heart attack or stroke occurred while the public safety
             officer was engaging in this activity, or participating in this
             training, or within 24 hours after this activity. 15



        14   See Appendix I for the text of the Hometown Heroes Survivors Benefits Act of
2003.

        15   42 U.S.C. § 3796 (2006).


U.S. Department of Justice                                                             2
Office of the Inspector General
Evaluation and Inspections Division
PSOB Program Regulations

      In January 2004, OJP began updating the PSOB regulations to
incorporate not only the provisions of the Hometown Heroes Act passed
the preceding month, but also 18 other congressional amendments to the
program and numerous court decisions over a 30-year period. The
updated PSOB Program regulations took effect on September 11, 2006.

OJP’s Definition of Terms From the Hometown Heroes Act

       The Hometown Heroes Act used the terms “nonroutine stressful or
strenuous” physical activity and “competent medical evidence to the
contrary” as criteria for determining whether PSOB claims would be
eligible for compensation. OJP defined these terms in developing the
PSOB Program implementing regulations. The OJP General Counsel, the
primary author of the updated regulations, said he used language from
the Hometown Heroes and the PSOB Acts, comments from members of
Congress in committee hearings, input from public meetings, and
consultations with experts in the public safety and medical fields to
develop definitions for these terms. We summarize below the information
used by the General Counsel to define the terms.

Nonroutine Stressful and Strenuous Physical Activity

      The Hometown Heroes Act states that benefits are available only if
heart attacks and strokes occurred under certain circumstances. While
the Hometown Heroes bill was under consideration, members of
Congress narrowed the criteria for receiving compensation. For example,
on November 21, 2003, House Judiciary Committee Chairman
Sensenbrenner stated that the legislation as originally proposed:

       [W]as to cover officers who suffered a heart attack or stroke as a result of
       nonroutine stressful or strenuous physical activity; however, testimony
       [by public safety officials] . . . indicated that the legislation as drafted was
       overboard . . . it would cover officers who did not engage in any physical
       activity but merely happened to suffer a heart attack at work. 16




       16 Cong. Rec., H12299 – H12300 (daily ed. Nov. 21, 2003) (statement of Rep.
Sensenbrenner). Testimony by public safety officials at a hearing conducted by the U.S.
House of Representatives Committee on the Judiciary, Subcommittee on Crime,
Terrorism, and Homeland Security: Hometown Heroes Survivors Benefits Act, H.R.
919, 108th Cong, 1st sess., June 26, 2003.



U.S. Department of Justice                                                                3
Office of the Inspector General
Evaluation and Inspections Division
According to Chairman Sensenbrenner, amendments to the bill were
proposed, and eventually adopted, to address this concern and create a
presumption that:

       [A]n officer who died as a direct and proximate result of a heart attack or
       stroke died as a direct and proximate result of a personal injury
       sustained in the line of duty if: (1) that officer participated in a training
       exercise that involved nonroutine stressful or strenuous physical activity
       or responded to a situation and such participation or response involved
       nonroutine stressful or strenuous physical law enforcement, hazardous
       material response, emergency medical services, prison security, fire
       suppression, rescue, disaster relief or other emergency response activity;
       (2) that officer suffered a heart attack or stroke while engaging or within
       24 hours of engaging in that physical activity; and (3) such presumption
       cannot be overcome by competent medical evidence. 17

      The amendments excluded activities of a “clerical, administrative,
or non-manual nature” and listed examples:

       •    sitting at a desk;
       •    typing on a computer or talking on the telephone;
       •    reading or writing paperwork or other literature;
       •    watching a police or corrections facility’s monitors of cells or grounds;
       •    teaching a class;
       •    cleaning or organizing an emergency response vehicle;
       •    signing a prisoner in or out;
       •    driving a vehicle on routine patrol; and
       •    directing traffic at or participating in a local parade. 18

      Committee Chairman Sensenbrenner further stated that, for the
purposes of the Hometown Heroes Act, “nonroutine stressful or
strenuous physical activities” included:

       •    involvement in a physical struggle with a suspected or convicted
            criminal;
       •    performing a search and rescue mission;
       •    performing or assisting with emergency medical treatment;
       •    performing or assisting with fire suppression;
       •    involvement in a situation that requires either a high-speed response
            or pursuit on foot or in a vehicle;
       •    participation in a hazardous material response;
       •    responding to a riot that broke out at a public event; and

       17Cong. Rec., H12299 – H12300 (daily ed. Nov. 21, 2003) (statement of Rep.
Sensenbrenner).

      18 Cong. Rec., H12299 – H12300 (daily ed. Nov. 21, 2003) (statement of Rep.

Sensenbrenner).




U.S. Department of Justice                                                              4
Office of the Inspector General
Evaluation and Inspections Division
       •    physically engaging in the arrest or apprehension of a suspected
            criminal. 19

      The amendments and examples listed above subsequently were
incorporated into the Hometown Heroes Act that was passed by both
Houses and signed into law. According to the General Counsel, OJP
used the list of examples of ineligible activities provided by Congress in
comments as guidance for devising the PSOB Program regulations and
claims review process.

      In the final regulations for the PSOB Program, OJP defined the
term “nonroutine stressful or strenuous physical activity” as:

       •    Nonroutine stressful physical activity means activity that
            is not performed as a matter of routine (routine means
            that the level of stress is routine and not simply that the
            activity itself is performed with some regularity) and
            entails non-negligible physical exertion.

            o For line-of-duty activity, it means activity that poses or
              appears to pose significant threats or hazards or
              involves reasonably foreseeable risks of such threats
              or hazards and provokes or causes an unusually high
              level of alarm, fear, or anxiety.

            o For training exercises, it means training that
              realistically simulates significant threats or hazards
              and provokes or causes an unusually high level of
              alarm, fear, or anxiety.

       •    Nonroutine strenuous physical activity means activity that
            is not performed as a matter of routine (routine means
            that the level of physical exertion is routine and not
            simply that the activity itself is performed with some
            regularity) and entails an unusually high level of physical
            exertion. 20




      19 Cong. Rec., H12299 – H12300 (daily ed. Nov. 21, 2003) (statement of Rep.

Sensenbrenner).

       20   28 C.F.R. § 32.13 (2006).




U.S. Department of Justice                                                          5
Office of the Inspector General
Evaluation and Inspections Division
       •    Nonroutine stressful or strenuous physical activity
            specifically does not include actions of a “clerical,
            administrative, or nonmanual nature.” 21

Competent Medical Evidence to the Contrary

       Another term OJP defined was “medical evidence to the contrary.”
Under the Act, “medical evidence to the contrary” could override the
presumption that a death from stroke or heart attack occurring within
24 hours of non-routine stressful activities was caused by line-of-duty
activities. OJP’s General Counsel said he consulted with the Armed
Forces Medical Examiner from the Armed Forces Institute of Pathology
(AFIP) to help define the term and develop the criteria OJP would use to
determine if “competent medical evidence to the contrary” was present
that could exclude a claimant from receiving benefits. 22 According to the
General Counsel, the goal was to craft a definition that would be
medically sound yet usable in the PSOB claims determination process. 23

       After consulting with the AFIP, OJP included in the proposed
regulations several criteria with enumerated risk factors that would help
it determine if factors other than the physical activity engaged in in the
line of duty (for example, coronary heart disease or obesity) caused the
heart attack or stroke. OJP received comments on the proposed
regulations objecting to the inclusion of such criteria in the proposed
regulations. These comments led OJP to replace its proposed risk-based
criteria in the final PSOB regulations with an approach that considers
whether the decedent had taken the necessary steps to treat known
medical conditions that may lead to a heart attack or stroke, such as by
taking medications for high blood pressure or high cholesterol. The AFIP
advised OJP that a pathologist would need 10 years of medical records to
provide a complete picture of a person’s medical history and actions
taken to address medical issues related to heart attacks or strokes.




       21   42 U.S.C. § 3796 (2006).
       22 The AFIP is an agency of the Department of Defense that provides pathology
consultation, education, and research to the federal government. The AFIP has over
820 employees, including over 120 pathologists and other scientists.

        23 OJP uses the term “determination” to mean the written decision that outlines

the facts of the public safety officer’s activities and death, a statement of whether the
claim is approved or denied, and the reasoning for the decision.


U.S. Department of Justice                                                           6
Office of the Inspector General
Evaluation and Inspections Division
PSOB Claims Process

Submitting a PSOB Claim Under the Hometown Heroes Act

      The PSOB Program is a claims program with eligibility and
evidentiary requirements for establishing entitlement to benefits. The
Hometown Heroes Act includes the same evidentiary requirements for
heart attacks and strokes as for traumatic injury deaths (such as
shooting deaths or asphyxiations in a fire). Moreover, it requires
additional documentation to prove that the officer engaged in non-
routine stressful or strenuous physical activity or training that directly or
proximately caused the heart attack or stroke. Under the PSOB Act, the
claimant is responsible for providing OJP with evidence that
demonstrates that the claim meets the criteria of the program and is
compensable.

      Claimants apply for PSOB Program compensation by filling out a
claim application form (see Appendix II for claim forms) and working with
the public safety agency in which the officer served to obtain other
required documentation and evidence. The claimant, independently or
through the public safety agency, submits the following supporting
documentation for a death claim under the Hometown Heroes Act:

       •   PSOB Report of Public Safety Officer’s Death form
           completed and signed by the head of the public safety
           agency;
       •   detailed statement of circumstances from the initiation
           of the incident to the pronouncement of the officer’s
           death;
       •   investigation, incident, or accident reports;
       •   death certificate;
       •   autopsy report or a statement signed by the head of the
           public safety agency or the medical examiner explaining
           that no autopsy was performed;
       •   toxicology report or a statement signed by the head of
           the public safety agency or the medical examiner
           explaining that no analysis was performed;
       •   a detailed statement listing all of the officer’s on-duty
           actions during the 24-hour period prior to the onset of
           the heart attack or stroke; and
       •   10 years of medical records related to the officer’s health
           (optional).




U.S. Department of Justice                                               7
Office of the Inspector General
Evaluation and Inspections Division
      The claimant also is required to submit information about
beneficiaries so that, if the claim is approved, OJP can determine who
should receive compensation. 24 The following documents are requested
from the claimant to assist OJP in establishing beneficiaries:

       •    current marriage certificate;
       •    divorce decrees for all the officer’s and current spouse’s
            previous marriages, including references to physical
            custody of children;
       •    death certificates for all the officer’s and current
            spouse’s previous marriages if ending in death;
       •    birth certificates for all of the officer’s surviving children,
            regardless of age or dependency; and
       •    for each stepchild, a statement of a parent-child
            relationship.

     Claimants can submit claim applications and any accompanying
documents to the PSOB Office by mail, facsimile, or online through the
BJA website.

Processing PSOB Claims

       The BJA’s PSOB Office receives PSOB death, disability, and
education assistance claim applications; ensures claims are complete
(which includes reviewing the documents submitted by the claimant and
public safety agency and contacting claimants for additional
documentation and information); and makes initial determinations of
whether claims are compensable and should be approved. The PSOB
Office then sends the claim applications and draft determinations to OJP
OGC, which conducts a second review to identify any legal issues. Both
the BJA and OJP OGC must concur on the claim determination based on
the evidence submitted by a claimant and the public safety agency. 25



       24  The PSOB Program beneficiary hierarchy is: (1) a surviving spouse or eligible
children, if no surviving spouse or eligible children then, (2) the individual designated
as beneficiary by the public safety officer at their agency or organization, (3) the
individual designated as the beneficiary on the most recently executed life insurance
policy, and (4) if the officer has no beneficiary listed on an insurance policy, the
surviving parents. See 42 U.S.C. § 3796(a)(4).

       25 OJP Instruction I 1310.72B, Redelegation of Authority to the Head of the

Public Safety Officers’ Benefits Program (PSOB), April 4, 2001.




U.S. Department of Justice                                                            8
Office of the Inspector General
Evaluation and Inspections Division
       If a claim is approved, the PSOB Office sends a letter notifying the
claimant and simultaneously submits a request for payment to the U.S.
Department of the Treasury. If a claim is denied, the PSOB Office sends
a notification to the claimant that includes the reasons for the denial and
information on the appeals process. Claimants can appeal denied PSOB
claims through three levels: Hearing Officers, the BJA Director, and the
federal courts. During a hearing, the claimant has the opportunity to
present new or additional evidence and call witnesses. See Appendix III
for a description of the appeals process.

       From December 2003 to November 29, 2007, the PSOB Office
received a total of 291 PSOB death claims submitted under the
Hometown Heroes Act. 26 The PSOB Office issued the first determination
for a Hometown Heroes Act claim on December 6, 2006, and as of
November 29, 2007, had made decisions on 112 claims (65 denials and
47 approvals), paying out $12,889,452. The amount of the one-time
death benefit, currently $303,064, is determined by the date of the
public safety officer’s death. 27 Appendix IV presents demographic
information from the completed Hometown Heroes Act claims.

     Figure 1 on the next page shows the PSOB claims review process
and Appendix V outlines the staffing, positions, and duties of each office
working on the PSOB Program.




        26 The BJA received a total of 299 PSOB death claims submitted under the

Hometown Heroes Act, but 6 claims were for deaths that were determined not to be
heart attacks or strokes and therefore not eligible under the Act, 1 claim did not have
evidence that the cause of death was a heart attack or stroke, and 1 claim was
withdrawn before final processing. All eight of those claims were received prior to the
effective date of the final PSOB Program regulations on September 11, 2006, and were
not included in the data analysis for this report. Additionally, the BJA does not count
claims that were denied because the decedent was not a public safety officer in the
totals for PSOB death claims submitted under the Hometown Heroes Act. We included
those claims in our analysis because the BJA processed them like other Hometown
Heroes Act claims.

       27 All approved claims are awarded the entire amount of the benefit. Since

October 15, 1988, the benefit has been adjusted each year on October 1 to reflect the
percentage of change in the Consumer Price Index.


U.S. Department of Justice                                                          9
Office of the Inspector General
Evaluation and Inspections Division
                               Figure 1: PSOB Claims Review Process


                  CLAIM INITIATED: Claim
                 received by PSOB Office and
                   logged in by Control Desk




                        Senior Benefits
                    Specialist assigns claim
                    to Specialist or Senior
                       Benefits Specialist




                      Benefits Specialist
                      reviews claim and
                        documentation




                          Is the claim           Yes       Benefits Specialist      Senior Benefits
                           application                     prepares case file      Specialist reviews
                           complete?                          and drafts         case file and may edit
                                                             determination           determination

                                                                                                               A
                                   No
                                                                                    PSOB Director
                                                                                 reviews case file and
                  Benefits Specialist requests                                         may edit
                     documentation from                                              determination                 Yes
                   claimant or public safety
                            agency

                                                                                                          Does the OGC
                                                                                    OGC attorney          attorney need
                                                                                   reviews case file         additional
                   Claimant or public safety                                      and determination        information?
                    agency returns missing
                   documents or information
                        to PSOB Office

                                                                                                                   No




NOTES:
  1 The PSOB Office may have to request information from                                                       B
    claimants and public safety agencies numerous times.
  2 The three green boxes make up the PSOB Office Editing Process
    that is repeated in the claims review process.




U.S. Department of Justice                                                                                                10
Office of the Inspector General
Evaluation and Inspections Division
           Benefits Specialist requests
  A        documentation from claimant
             or public safety agency




            Claimant or public safety
             agency returns missing
           documents or information to
                 PSOB Office




               PSOB Office editing
                   process




                                                                                APPROVAL: Claimant
           OGC attorney reviews case                                           receives letter of approval
            file and draft determination                                       and U.S. Treasury issues
                                                                                         check




                   Is the claim            Yes      Does the claim       No
                   approved?                          require a                   PSOB Office sends
  B
                                                     pathologist                   letter to claimant
                                                       review?



                           No                                  Yes


                                                 Independent pathology
                                                        review
               PSOB Office sends
                letter to claimant




                                                        Was there         No
                                                        "medical
                                                       evidence to
                                                     the contrary?"



                                                               Yes                           DENIAL: Claimant
                                                                                         receives letter of denial and
                                                                                           has the right to appeal




U.S. Department of Justice                                                                                           11
Office of the Inspector General
Evaluation and Inspections Division
                 PURPOSE, SCOPE, AND METHODOLOGY
                        OF THE OIG REVIEW


Purpose

       We examined how OJP has implemented the Hometown Heroes Act
and how it processes PSOB claims submitted under the Act. As part of
this review, we assessed the timeliness of claims processing and the
reasoning behind claims determinations. We initiated this review after
receiving congressional requests that expressed concern about OJP’s
implementation of the Hometown Heroes Act. Specifically, several
members of Congress raised concerns about the timeliness of OJP’s
claims processing and whether OJP’s interpretation of the terms
“nonroutine stressful or strenuous physical activity” and “competent
medical evidence to the contrary” was resulting in a high claims denial
rate.

Scope and Methodology

       The review encompassed the two offices involved in reviewing and
processing PSOB claims: OJP’s PSOB Office, which organizationally is
under the BJA, and OJP’s OGC. We examined each office’s role in the
PSOB Program and gathered information related to the reasons for
claims determinations, how OJP developed its definitions of terms for
processing claims, factors affecting timely claims processing, and OJP’s
initiatives to improve the claims adjudication process. 28 Our fieldwork,
conducted from July 2007 to October 2007, included in-person and
telephone interviews, data analyses, and document reviews.

Interviews

      We interviewed 14 OJP management officials and staff, 5
contractors, 1 medical examiner, and 7 representatives from 4 public
safety officer associations. Table 1 lists the individuals interviewed.




       28 We did not evaluate the appeals process for denied claims of the PSOB

Program because no claims had completed any level of appeal during our review period.
Subsequent to our fieldwork, as of November 29, 2007, Hearing Officers completed
reviews of four claims.


U.S. Department of Justice                                                        12
Office of the Inspector General
Evaluation and Inspections Division
                Table 1: Interviews Conducted by the OIG

              Organizations                         Officials Interviewed
   BJA, OJP                               •   Director, BJA
                                          •   Director, PSOB Program
                                          •   Senior Benefits Specialist (3)
                                          •   Benefits Specialist (3)
                                          •   Paralegal Specialist
                                          •   Hearing Officer, Contractor (4)
   OGC, OJP                               •   General Counsel
                                          •   Deputy General Counsel
                                          •   Staff Attorney (2)
                                          •   Attorney, Contractor
                                          •   Paralegal Specialist
   Armed Forces Institute of              •   Armed Forces Medical Examiner
   Pathology
   Public Safety Officer Associations
      Congressional Fire Services         •   Director of Government Affairs
      Institute
      Fraternal Order of Police           •   Executive Director
                                          •   Senior Legislative Liaison
      International Association of Fire   •   Assistant to the General President
      Fighters                            •   Legislative Representative
      National Fallen Firefighters        •   Chairman of the Board
      Foundation                          •   Executive Director



Data Analyses and Document Reviews

      We reviewed and analyzed data that the BJA provided on
Hometown Heroes Act claims processed through November 29, 2007.
These data included the number of PSOB claims submitted; the number
of PSOB claims approved, denied, and pending; and the claim
determinations for decided cases.

       We reviewed OJP regulations, budget documents, organizational
charts, position descriptions, contracts, staff performance plans,
memoranda, policy guidance, and manuals. Additionally, we reviewed
legislation, congressional testimony, and news articles related to the
Hometown Heroes Act. We examined a sample of three PSOB death
claim case files. We also reviewed the PSOB database and analyzed
PSOB Office staff members’ notes on claims entered into the database.
Our analysis was limited in part because the PSOB Office database does


U.S. Department of Justice                                                         13
Office of the Inspector General
Evaluation and Inspections Division
not capture the date a claim application is received by OJP and does
contain fields to capture the progress of each case through the claims
review process.

      Because OJP OGC could not provide documentation or records
related to its process for updating the PSOB regulations, we relied on the
OGC staff’s verbal account of their activities and on interviews with
public safety officer associations and the AFIP Medical Examiner
regarding their involvement in the rulemaking process.




U.S. Department of Justice                                               14
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


       After passage of the Hometown Heroes Act in December
       2003, a backlog of 201 claims developed during the 33
       months that it took OJP to issue final regulations
       implementing the Act. Moreover, even after OJP issued
       the regulations in September 2006, its claims processing
       was slow because many claims had been submitted
       without required documentation, OGC’s legal reviews of
       claims were lengthy, and pathology reviews on some
       claims were not available.        After its first year of
       processing claims under the Act, OJP implemented
       several initiatives to improve its timeliness.

       We also found that OJP denied most of the Hometown
       Heroes Act claims it processed during the first year
       because of the lack of evidence demonstrating the
       officers engaged in “nonroutine stressful or strenuous
       activity.” While most of these denials met the intent of
       the Hometown Heroes Act, some denials were based in
       part on an OJP criterion that narrowly interpreted the
       Act. In the fall of 2007, OJP changed this criterion and
       issued a policy that all responses to emergency calls
       would be considered “nonroutine,” a revision that
       appears to have resulted in more approved claims.

       In the sections that follow, we describe how OJP revised the PSOB
regulations that govern the Hometown Heroes Act program and how a
significant backlog of claim applications developed. We also describe
actions OJP has taken in the past year to reduce the backlog and
expedite claims processing. We then examine OJP’s decisions on claims
through November 29, 2007, as well as the effect of recent policy
changes.

I. OJP’S PROCESSING OF HOMETOWN HEROES ACT CLAIMS

Claims were not processed until regulations were updated.

      Thirty-three months passed from the time the Hometown Heroes
Act was enacted in December 2003 until OJP issued final PSOB
regulations implementing the Act in September 2006. During that




U.S. Department of Justice                                            15
Office of the Inspector General
Evaluation and Inspections Division
period, OJP accumulated a backlog of 201 claims. 29 As of November 29,
2007, OJP had received an additional 90 Hometown Heroes Act claims
for a total of 291 claims. Figure 2 shows the Hometown Heroes Act
claims received each fiscal year from the enactment of the Act through
November 2007.

                     Figure 2: Hometown Heroes Act Claims by Fiscal Year

                    350


                    300                                              282          291

                                                                                         9
                    250                                               66
                                                       216
 Number of Claims




                    200

                                                        91
                    150
                                          125                                      282

                                                                      216
                    100
                                           74
                           51
                                                       125
                    50
                            51             51

                     0

                          FY 2004       FY 2005       FY 2006       FY 2007   FY 2008 (Oct &
                                                                                Nov only)


                                    Existing Claims    New Claims Received


Note: Fiscal year 2008 includes data only from the first 2 months, as of November 29,
2007.
Sources: PSOB claims determinations, PSOB Office database

     The PSOB Office issued its first determination on a Hometown
Heroes Act claim on December 6, 2006. Over the next year, through
November 29, 2007, OJP made determinations on 112 of the 291 claims

        29 Appendix VI summarizes the factors that affected the length of time it took to

rewrite the PSOB Program regulations.


U.S. Department of Justice                                                                   16
Office of the Inspector General
Evaluation and Inspections Division
(38 percent) it had received. As of November 2007, there were 179
Hometown Heroes Act claims awaiting OJP’s final determination,
including many claims that had been pending for 3 or 4 years. For
example, over 40 percent of the claims submitted in fiscal year (FY) 2004
had not been decided. Table 2 shows the number of claims pending and
closed by fiscal year.

              Table 2: Pending and Closed Claims by Fiscal Year
                          (as of November 29, 2007)


                   Pending Claims                Closed Claims
                                                                            Total
                                                                           Claims
Fiscal Year
                              Percentage                  Percentage      Received
                 Number        of Fiscal    Number         of Fiscal
                                 Year                        Year

   2004                22          43.1%            29         56.9%                 51
   2005                32          43.2%            42         56.8%                 74
   2006                56          61.5%            35         38.5%                 91
   2007                60          90.9%             6           9.1%                66
   2008                   9       100.0%             0           0.0%                 9
   Total              179          61.5%           112         38.5%              291
Note: The table includes data for only 2 months of FY 2008, as of November 29, 2007.
Source: PSOB claims determinations

       Although OJP could not make final determinations until the PSOB
Program regulations were issued, we found OJP’s subsequent processing
of claims was untimely. To assess OJP’s processing of claims, we
examined how long it took OJP to process claims after issuance of the
regulations. 30 As shown in Figure 3, processing times for the 112
completed claims ranged from 3 to 14 months, with a median of 10
months.




       30  The PSOB Office’s database does not include a field for the date of a claim
application’s receipt. However, we were able to estimate the date a claim was received
by reading through the “notes” section of the database. To calculate the claims
processing time, we used September 11, 2006 (the date PSOB Program regulations were
enacted), as the start date for the 102 completed claims OJP received before that date.
For the 10 completed claims that OJP received after that date, we used the estimated
receipt dates from the “notes” section of the database.


U.S. Department of Justice                                                         17
Office of the Inspector General
Evaluation and Inspections Division
                                    Figure 3: Total Processing Time for Completed
                                             Hometown Heroes Act Claims


                    25

                                                                                                        20
                    20
                                                         17
 Number of Claims




                                                                                                             15
                    15
                                                                                      Median
                                                10                                                 10
                    10                                            8
                                7       7
                                                                                          6
                                                                                               5
                        5
                                                                          4
                                                                                  3


                        0
                            s


                                    s


                                            s


                                                     s


                                                              s


                                                                      s


                                                                                       s


                                                                                      s


                                                                                      s


                                                                                      s


                                                                                      s


                                                                                      s
                                   th
                       th




                                           th


                                                    th


                                                            th


                                                                     th


                                                                             th


                                                                                    th


                                                                                    th


                                                                                    th


                                                                                    th


                                                                                    th
                     on


                                 on


                                         on


                                                  on


                                                          on


                                                                   on


                                                                           on


                                                                                  on


                                                                                  on


                                                                                  on


                                                                                  on


                                                                                  on
                    M


                                M


                                        M


                                                 M


                                                         M


                                                                  M


                                                                          M


                                                                                 M


                                                                                 M


                                                                                 M


                                                                                 M


                                                                                 M
                    3


                            4


                                        5


                                                6


                                                         7


                                                                 8


                                                                          9

                                                                              10


                                                                              11


                                                                              12


                                                                              13


                                                                              14
                                                                          Months

Sources: PSOB claims determinations, PSOB Office database

          We found that the PSOB Office had taken some steps to prepare
  claims for processing once the final regulations were issued, but these
  initial actions did not enable OJP to make timely determinations after the
  regulations were in place. Case notes in the database maintained by the
  PSOB Office show that while OGC was revising the regulations, PSOB
  Office staff reviewed each claim application, contacted claimants or
  points of contact, informed claimants about the status of their claims
  and the regulations being developed, and requested missing information
  or documentation based on the original PSOB Program requirements. 31
  Despite these efforts, three factors slowed the processing of claims after
  issuance of the regulations: (1) many claims were submitted without
  required documentation, (2) OJP OGC’s legal reviews were time
  consuming, and (3) OJP experienced difficulty in obtaining independent

         31 We based part of our analysis on the PSOB Office’s database, which contains

  a “notes” section where staff members record activity on claims and appeals. Although
  the notes do not always record every action on a claim, we found that entries often
  included information about such as matters as calls from claimants, questions from
  OGC attorneys, and when the case file was moved in and out of the PSOB Office.


  U.S. Department of Justice                                                                                      18
  Office of the Inspector General
  Evaluation and Inspections Division
pathology reviews of PSOB claims. The following sections discuss these
factors and the steps OJP has taken recently to address them.

Factor 1: Claimants submitted incomplete claims.

       PSOB Office staff members told us that approximately 90 percent
of the Hometown Heroes Act claims were submitted without all the
information or documentation OJP needed to make a determination. We
found that three issues contributed to incomplete claim submissions and
the extensive time it took claimants and public safety agencies to provide
the missing information. First, the PSOB Program instructions and
guidelines for completing claim applications were unclear and did not
provide sufficient direction to inform claimants of the information
requirements. Second, some of the required documents, particularly
medical records, were difficult or costly for the claimants to obtain.
Third, smaller and volunteer public safety agencies did not always have
the administrative structure to adequately respond to OJP’s information
requests. When incomplete claim applications were received, the PSOB
Office staff said they contacted claimants and public safety agencies to
obtain missing information, but could not continue processing the claims
until responses were received. PSOB Office staff members stated that
delays resulting from obtaining necessary information from the claimants
and public safety agencies added from a week to a year to the processing
of individual claims. A discussion of each of these three issues follows.

Limited Instructions and Guidance on Completing Claims

      We found that although information about the Hometown Heroes
Act and how to submit a claim under the Act was available, the
information was not presented in an understandable manner. OJP
provided instructions on submitting claims that were scattered among
standardized claim forms, the PSOB Program regulations, two checklists,
a Hometown Heroes fact sheet, and a list of frequently asked questions
about the Act. No single document took a claimant step-by-step through
the application process, detailed the eligibility and beneficiary
requirements, and specified all required documentation.

      For example, the required standardized PSOB claim forms – Claim
for Death Benefits (completed by the claimant) and Report of Public
Safety Officer’s Death (completed by the public safety agency) – contained
limited instructions that did not explain the claim process or list all the
documents that may be required for a claim determination. Instead, the
instructions referred the claimant to the PSOB Act and regulations for



U.S. Department of Justice                                             19
Office of the Inspector General
Evaluation and Inspections Division
eligibility requirements. However, the statutory and regulatory language
was not easy for claimants and public safety agencies to interpret.

       We also found that although OJP had issued instructions for
public safety agencies, it had not developed separate instructions
specifically for claimants. Specifically, OJP had two checklists for public
safety agencies (one for firefighters and one for law enforcement) that
outlined all documents, reports, and information needed for the claim
application. The checklists provided helpful tips to public safety
agencies and encouraged properly documented submissions. 32 No
similar checklist existed for claimants. Therefore, a claimant who may
have been working on an application without the assistance of a public
safety agency may not have realized certain documentation was needed
for the claim.

      We also reviewed two PSOB Office documents added to the BJA
website in September 2007 that contained only general information
about the PSOB Program. The first, a fact sheet, provided a history of
OJP’s implementation of the Hometown Heroes Act. The second, a list of
frequently asked questions, addressed questions arising from concerns
over PSOB Office requests for medical information and the backlog of
claims. Neither provided instructions on how to fill out claims
applications.

Difficulties in Obtaining Documents

       The second issue that contributed to incomplete claim
submissions was the difficulty and costs associated with obtaining
certain required information. For example, according to PSOB Office
staff and representatives of public safety agencies that we interviewed,
the request to submit 10 years of medical records for the pathologist’s
review was particularly challenging for some claimants. Other
documents that PSOB Office staff told us have sometimes proved difficult
for claimants to obtain included birth certificates, death certificates,
marriage certificates, and divorce decrees. In addition, PSOB Office staff
said that claimants must sometimes pay fees to obtain the required
medical records and other documents.




       32 For example, the checklists stressed the importance of and provided

instructions for completing the detailed statement regarding the 24-hour period prior to
the public safety officer’s heart attack or stroke.


U.S. Department of Justice                                                          20
Office of the Inspector General
Evaluation and Inspections Division
Lack of Administrative Structure in Small and Volunteer Public Safety
Agencies

       The third issue that contributed to incomplete applications was the
fact that many smaller public safety agencies, particularly volunteer fire
and emergency services departments, lacked the administrative systems
and resources to produce the required documentation. Such documents
include the PSOB Report of Public Safety Officer’s Death, a second
statement detailing the circumstances of the officer’s death, and other
investigation, incident, or accident reports. The PSOB Director stated
that unlike larger public safety agencies, many small and volunteer
departments do not have extensive recordkeeping requirements or do not
generate standard reports, such as daily logs of volunteers’ activities,
which would facilitate the collection of documentation for a claim.
Additionally, smaller departments may not have personnel designated to
act specifically as a liaison or point of contact for claimants and the
PSOB Office. Because only the public safety agencies can generate some
of these documents, if they cannot or do not provide them, claimants
may submit incomplete applications.

Factor 2: OJP OGC’s reviews of claims were lengthy.

      The second factor that contributed to the slow processing of claims
was the time it took OJP OGC to conduct its legal reviews of claims.
From our examination of the PSOB Office database, we estimated that
OGC took, on average, 50 days to review a claim; however, these reviews
ranged from under 10 days to over 200 days. 33 Figure 4 shows the
number of days that OGC spent reviewing those claims that were
completed as of November 29, 2007.




       33 The PSOB Office database does not contain separate data fields to record
dates that claims are sent to and received from the OGC. The dates used in our
analysis were extracted from the “notes” section of the database. The “notes” section
did not have dates for all the completed claims. The times estimated do not include
periods when the case files were returned to the PSOB Office for additional
documentation or information, but only the actual time the case file was in OGC for
review.


U.S. Department of Justice                                                          21
Office of the Inspector General
Evaluation and Inspections Division
                      Figure 4: Number of Days OGC Spent Reviewing Claims That
                             Were Completed as of November 29, 2007

                      20
                      18    17

                      16             15             15

                      14
   Number of Claims




                                           12
                      12
                      10
                                                                                            8
                      8
                                                              6
                      6                                                          5
                                                                       4                                          4
                      4                                                                                3                     3               3

                      2
                                                                                                                                        0
                      0


                                                                                        0




                                                                                                              0

                                                                                                                         5

                                                                                                                                    0
                                                                                                   5
                                 30

                                          45




                                                         75

                                                                  90
                                                60
                           15




                                                                             5




                                                                                                                                        80
                                                                                     12




                                                                                                           15

                                                                                                                      16
                                                                                                13




                                                                                                                                 18
                                                                           10




                                                                                                                                      r1
                                to

                                      to




                                                     to
                                               to




                                                              to
                       to




                                                                                 to




                                                                                                       to
                                                                                            to




                                                                                                                  to

                                                                                                                             to
                                                                       to




                                                                                                                                    ve
                            16

                                     31

                                           46

                                                    61

                                                          76
                      1




                                                                              6




                                                                                                   6
                                                                                        1




                                                                                                                         6
                                                                                                              1
                                                                   91




                                                                                                                                   O
                                                                            10




                                                                                                 13
                                                                                      12




                                                                                                            15

                                                                                                                       16
                                                    Number of Days in OGC Review

 Sources: PSOB claims determinations, PSOB Office database

      We found that the OGC’s review of some claims was lengthy
because of its inefficient internal practices for requesting documentation
and assigning claims to attorneys. We discuss each of these practices
below.

OGC Requests for Documentation

       The PSOB Director and staff told us that OGC attorneys often
would not review a claim or make a final determination until all
documentation was in the case file because they wanted to review the
case in its entirety. However, according to PSOB staff, in some cases the
additional documents were not necessary for making a determination on
whether the claim was compensable under the Hometown Heroes Act.
For example, documents to establish potential beneficiaries (e.g., birth
certificates, marriage licenses, or divorce decrees) are not needed unless
a claim is determined to be compensable.

      PSOB Office staff also told us that the OGC attorneys sometimes
requested additional documents and information, such as a report of a


U.S. Department of Justice                                                                                                                   22
Office of the Inspector General
Evaluation and Inspections Division
decedent’s activities for the 24 hours prior to the heart attack or stroke,
even when the claim did not meet the basic criteria established by the
PSOB Act or the Hometown Heroes Act. For example, a claim is not
compensable if the decedent was not a public safety officer, so an activity
report would have no effect on the claim determination. The OJP
General Counsel told us the attorneys seek additional information
because they are looking for every possible way to approve a claim. The
Deputy General Counsel further stated that the attorneys in the past
have asked for information that now, with greater experience, realize may
not be necessary.

       PSOB staff also told us that different attorneys would review the
same claim at different times but not keep records of their reviews, which
sometimes led to duplicative information requests. 34 In addition, PSOB
and OGC staff told us that the attorneys had no formal method for
recording information requests in a case file, so their requests were not
documented unless they were noted in the PSOB database by PSOB
Office staff members. The Deputy General Counsel told us that she
encourages attorneys to put information requests and comments in
writing, but acknowledged that while attorneys sometimes write
comments on tracking slips attached to the case files, communication is
informal and often occurs through telephone or e-mail conversations.
This informal system does not ensure that all communication is
recorded.

       In addition, the PSOB Office staff said that the length of the claims
review process was extended because OGC attorneys made numerous
inconsistent edits to the draft determinations prepared by the PSOB
Benefits Specialists and Senior Benefits Specialists. According to PSOB
Office staff, they prepared the determinations using a template developed
specifically for that purpose, but OGC attorneys continued to make
changes to the formatting and standard language in the template. The
PSOB Office staff said the changes were sometimes based on legal issues,
but more often were stylistic, with several attorneys reviewing the claims
and each making individual changes according to their personal styles.
According to PSOB staff, these types of changes caused confusion among
the PSOB Office staff and delayed issuance of determinations. The
Deputy General Counsel told us that she had directed the attorneys to
cease editing based on writing style and to focus only on editing that
affected the legal issues related to the claim.


       34 OGC does not have an automated or formal paper system for recording notes

about PSOB claims.


U.S. Department of Justice                                                      23
Office of the Inspector General
Evaluation and Inspections Division
OGC Case Assignments

       OGC’s practice has been to assign PSOB claims, including
Hometown Heroes Act claims, among many OGC attorneys, according to
the attorneys we interviewed and the General Counsel. The General
Counsel stated that he wanted staff attorneys to gain experience in all
OJP programs, so he intentionally spread the work among a number of
attorneys. As of October 2007, various types of PSOB claims (death,
disability, and education) were assigned to 11 of the 16 OGC staff
attorneys. Each of the 11 attorneys spent about 20 to 30 percent of his
or her time on the PSOB Program. 35 However, the PSOB Director
believed that because so many different attorneys work on the claims on
less than a half-time basis, they were less able to develop expertise on
the PSOB Program and especially on the Hometown Heroes Act. The
PSOB Director said she had asked OGC for a smaller cadre of attorneys
to dedicate more of their time to the PSOB Program, but OGC had not
changed its work assignments.

No Timeliness Standards

       While discussing with OGC staff how they reviewed PSOB claims,
we noted that OGC had no established timeliness standards for
conducting its claims reviews. 36 In response to our request for any
established performance standards, the Deputy General Counsel stated
the she had told attorneys to give a claim to another attorney if they
could not examine the case file within 2 weeks of receipt, but that the
OGC has no specific goals or measures to guide the length of the case
review. The Deputy General Counsel told us that timeliness was a part
of the office’s customer service standards and referred us to the OGC
staff attorney performance work plans. When we reviewed these work
plans, we found they included the following language under the overall
goal of customer service: “Reviews client documents for legal
compliance/sufficiency within the timeframe agreed upon with client
office or General Counsel.” However, we did not find that OGC attorneys

       35  The one contract attorney hired to work on PSOB claims was working full
time solely on claims submitted under the Hometown Heroes Act.

       36  In 2004, former Attorney General Ashcroft directed the PSOB Office to make
a determination on all filed PSOB claims within 90 days of receiving all necessary
information and identifying all potential beneficiaries. Our review of the PSOB database
case notes indicated that the PSOB Office completed their portion of processing claims
well within 90 days after receiving all the necessary documentation from claimants.
(John Ashcroft, Attorney General, U.S. Department of Justice, memorandum to OJP
and BJA, Public Safety Officers’ Benefits Program, May 13, 2004).


U.S. Department of Justice                                                           24
Office of the Inspector General
Evaluation and Inspections Division
had made any agreements regarding timeliness with the PSOB Office
staff members. Consequently, there were no established time standards
for conducting the claims reviews.

Factor 3: Claims were delayed pending new contract pathologist.

       The final factor that delayed OJP’s processing of Hometown Heroes
Act claims was that OJP experienced difficulty in obtaining independent
pathology reviews. OJP initially sent all the claims to the AFIP, where an
AFIP pathologist reviewed the medical records, toxicology report, and
autopsy report for each claim. This review took from 4 to 6 weeks. Then,
as the claims review process progressed, OJP sent the AFIP only those
claims that had been initially found to be compensable under the Act.
However, in May 2007 the AFIP ceased doing any reviews for the PSOB
Program because an increasing amount of its time was focused on
military casualties from the war in Iraq. After the AFIP informed OJP
that it could no longer perform these reviews, OJP searched for a new
contract pathologist. In the interim, claims were delayed. In September
2007, OJP hired a contract pathologist to review the PSOB death claims.
OJP also identified two other contract pathologists who are available
should the workload require additional reviewers.

OJP has taken steps to improve the timeliness of the claims review
process.

       Toward the end of our review period, in the fall of 2007, the BJA
and OJP OGC implemented improvements to address several of the
factors that contributed to the lengthy claims review process. These
initiatives included additional guidance to claimants and internal
procedural changes to speed the claims review process. While early
evidence suggests that some of these initiatives have improved claims
processing, we could not fully determine their effect on the process
because they were implemented near the conclusion of our field work. 37

      For example, during FY 2007, the first full year of processing
claims after issuance of the final regulations, OJP issued 72

       37 However, OJP provided the OIG with an update to the numbers of Hometown
Heroes Act claims processed and pending in an e-mail in March 2008. As of March 26,
2008, OJP had received a total of 303 claims, of which 213 had been decided, 1 had
been withdrawn by the claimant, and 89 were pending a determination. OJP had
approved 122 claims and denied 91 claims, 8 of which were overturned on appeal to
approvals. The backlog of claims OJP developed during the time the program
regulations were developed was reduced from 201 to 27.




U.S. Department of Justice                                                      25
Office of the Inspector General
Evaluation and Inspections Division
determinations. However, during just the first 2 months of FY 2008, OJP
issued 40 determinations, although processing of the cases began before
that time. These improvements are discussed below.

Additional Guidance and Change in Claim Requirements

      To address the problem of receiving incomplete claims submissions
and to reduce claimants’ response times to requests for additional
documentation, OJP took the following four steps:

The Attorney General’s Guide to the Hometown Heroes Act

      The BJA, with input from public safety officer associations,
developed a guide to the Hometown Heroes Act for claimants and public
safety agencies. The guide compiles claim application instructions in a
single document that contains detailed information on the Hometown
Heroes Act and the criteria used to evaluate claims. The guide also
translates the legal language used in the statute and program
regulations into clearer instructions. The BJA said it expected to issue
the guide in February 2008.

Local Assistance State Teams

       To help claimants and public safety agencies complete PSOB claim
applications, the BJA awarded a grant in 2006 to the National Fallen
Firefighters Foundation to develop the Local Assistance State Teams
(LAST) program. When a firefighter dies in the line of duty, a team is
deployed to aid the decedent’s family, the public safety agency, and
colleagues with funeral arrangements, counseling¸ and submitting a
PSOB claim, among other things. 38 As of October 2007, 36 states and
the District of Columbia had active teams. The PSOB Director said she
believed the LAST program would improve the public safety community’s
knowledge of the PSOB Program. She also told us that the program had
already resulted in the submission of more complete PSOB claims
applications than in the past. In August 2007, the BJA awarded a grant
to an organization called Concerns of Police Survivors to establish the
same type of program for the law enforcement community.




         38 Team leaders are chosen by each individual state fire service. Teams are

composed of a chaplain, an honor guard, a behavior health specialist, a survivor, and a
fire officer.




U.S. Department of Justice                                                          26
Office of the Inspector General
Evaluation and Inspections Division
Medical Records

       On October 2, 2007, the BJA Director issued a memorandum
directing the PSOB Office to request 10 years of medical records for
Hometown Heroes Act claims only if the evidence in a case file suggests
that something other than the line-of-duty activity caused the heart
attack or stroke. If an autopsy report, coroner’s report, or death
certificate identifies the presence of cardiovascular disease or other risk
factors, this information will not be considered unless the case file shows
that the decedent knew of and continued to aggravate these conditions.
The memorandum further stated that OJP will review any medical
records requested from the claimant for mitigating evidence in favor of
the claim. 39 The PSOB Office expects this decision to reduce delays in
processing of claims where medical records are not required to make a
determination.

State and Local Line-of-Duty Death Benefits

      Similarly, in October 2007 the OGC Deputy Counsel told us that
because some states and localities do not offer death benefits for heart
attacks and strokes, OGC is no longer requesting that the PSOB Office
obtain documentation on payment of these benefits from claimants in
those states or localities.

Changes to Internal Processing of Claims

       In addition, OJP recently has introduced the following three
initiatives to improve the timeliness of claims processing:

“12-a-Week” Initiative

        The PSOB Director started a “12-a-week” initiative in August 2007
to work through the pending Hometown Heroes Act claims and to
accelerate the PSOB claims process overall. The PSOB Office staff and
the Director meet weekly to discuss the 12 oldest Hometown Heroes Act
claims in their caseload. The staff members determine whether the case
files include all the evidence necessary to render a decision and then
forward those that do to OGC for legal review. According to the PSOB
Director, referral is not delayed if the case file lacks documents or
information that would not affect the decision to approve or deny the

        39 Domingo Herraiz, Director, Bureau of Justice Assistance, Public Safety

Officers’ Benefits Program Policy Memorandum, re: “Competent Medical Evidence to the
Contrary,” October 2, 2007.


U.S. Department of Justice                                                       27
Office of the Inspector General
Evaluation and Inspections Division
claim, such as beneficiary information. The BJA Director stated in
testimony before the Senate Judiciary Committee on October 4, 2007,
“We are fully committed to this 12-in-a-week strategy until all claims
have been processed and normalized to about seven new cases per
month by March 2008.”

Outreach Administrative Contractors

      In FY 2007, the PSOB Director created the position of Outreach
Administrative Contractor to handle the most time-consuming tasks
associated with PSOB claims processing, such as contacting claimants
and public safety agencies for additional information and documents.
The Director said she believed this would allow the Benefits Specialists
and Senior Benefits Specialists to concentrate on analyzing case file
evidence and rendering determinations. The PSOB Director hired one
contractor in September 2007 and said she intended to hire at least one
additional contractor if needed.

PSOB Case Management System

       In October 2007, the PSOB Office began the first phase of
implementing a new case management system. The PSOB Office’s
previous database did not allow for detailed searches, reminders for
follow-up actions on claims, or a direct link to scanned documents that
accompany claims. The new system enables the Benefits Specialists to
check supporting scanned documentation within the claim record, which
can improve claim processing times. Further, unlike the old database,
the new system can be accessed by OGC attorneys, and attorneys
working on PSOB claims can view entire case files in the system and
leave notes for the PSOB Office, such as requests for additional
documentation or information. Thus, communication between the PSOB
Office and OGC attorneys will be conducted in the electronic case file for
future reference.




U.S. Department of Justice                                               28
Office of the Inspector General
Evaluation and Inspections Division
II. OJP’S DECISIONS ON CLAIMS PROCESSED

      From September 11, 2006, to November 29, 2007, OJP made
determinations on 112 of 291 Hometown Heroes Act death claims.
Overall, OJP approved 47 claims and denied 65 claims. The benefits
awarded in the 47 approved claims totaled $12,889,452.

      We reviewed the determinations for all 112 completed Hometown
Heroes Act claims to examine the reasoning behind OJP’s decisions.
Because claimants and members of Congress had expressed concern
that OJP’s interpretation of the Hometown Heroes Act’s terms
“nonroutine stressful or strenuous physical activity” and “competent
medical evidence to the contrary” resulted in unfair denials of many
claims, we examined how OJP applied these terms when evaluating
claims.

Denied Claims

      OJP determined that 10 of the 65 denied claims did not contain
evidence to meet basic eligibility criteria established in the PSOB Act or
the Hometown Heroes Act. For example, in several cases the decedent
was not a public safety officer, or was not on duty in the 24 hours prior
to death, or did not perform line-of duty activities.

       For the remaining 55 denied claims that met the basic eligibility
criteria, we found that OJP focused primarily on the claim’s evidence
regarding the stressful and strenuous nature of the decedents' physical
activity or training exercise. Overall, OJP concluded that the 55 claims
were non-compensable because the evidence in the applications did not
sufficiently show that the public safety officer engaged in “stressful or
strenuous physical activity or training.” 40 Finding “competent medical
evidence to the contrary” was not a factor in any of the denied claims.

      We determined that OJP narrowly interpreted the Act for at least
19 claims denied during the first year of claims processing. OJP denied
19 claims in which officers had responded to calls based on a criterion
that was changed in October 2007. After October 2007, OJP considered



         40 To be considered stressful, the physical activity must pose or appear to pose

“significant threats or hazards” or involve “reasonably foreseeable risks of such threats
or hazards” and provoke or cause “an unusually-high level of alarm, fear, or anxiety.”
To be considered strenuous, the activity must “entail a high level of physical exertion.”
See 42 U.S.C. § 3796 (2006).


U.S. Department of Justice                                                            29
Office of the Inspector General
Evaluation and Inspections Division
any response to an emergency call to be “nonroutine” and attributed the
approval of some subsequent claims to the policy change.

       We present OJP’s reasons for the 65 denials below.

Cases That Did Not Meet the Basic Criteria of the Act

       As mentioned above, 10 of the 65 claims denied were cases in
which the applications did not show that the claims met the basic
criteria established in the PSOB Act or the Hometown Heroes Act. Five of
these claims did not show evidence that the decedent was a public safety
officer, four did not show evidence that the officer was on duty in the 24
hours prior to the heart attack or stroke, and one did not show evidence
that the death met the requirements for “line of duty” activities. 41

Cases Involving Officers Who Did Not Respond to a Call

       Twenty-seven of the 65 denied claims involved officers who were on
duty but did not respond to a call and did not engage in a qualifying
activity as required by the PSOB Act. 42 The officers’ activities in these 27
claims varied from administrative duties, such as filling out paperwork or
attending meetings, to ancillary activities, such as routine maintenance
on department vehicles, marching in a parade as a member of the
department, installing smoke detectors for citizens, or manning the
station house.

       OJP denied other claims in this category because the officers’
activities did not involve great physical exertion, such as correctional
officers who made rounds and assisted in food service but did not
respond to an emergency, or because the officers conducted only regular
patrols or routine traffic stops.


       41  The PSOB program defines line of duty activity as “activity or an action that
[the public safety officer] is obligated or authorized by statute, rule, regulation,
condition of employment or service, official mutual-aid agreement, or other law, to
perform . . . under the auspices of the public agency he serves, and such agency (or the
relevant government) legally recognizes that activity or action to be so obligated or
authorized. . . . [The activity] is performed (as applicable) in the course of law
enforcement, providing fire protection, engaging in rescue activity, providing emergency
medical services, or training for one of the foregoing, and such agency (or the relevant
government) legally recognizes it as such.” See 28 C.F.R. § 32.3 (2006).

        42 Qualifying activities include law enforcement, fire suppression, rescue

activity, hazardous material response, emergency medical services, disaster relief
activity, or other emergency response. See 42 U.S.C. § 3796 (k)(1)(A) (2006).


U.S. Department of Justice                                                           30
Office of the Inspector General
Evaluation and Inspections Division
Cases Involving Officers Participating in Training

       Another 9 of the 65 denied claims involved public safety officers
who died after suffering a heart attack or stroke while participating in
training activities that did not meet the definition established in the
PSOB Program regulations. Some of these officers attended training
sessions in a classroom that did not involve physical activity or engaged
in physical fitness training (such as lifting weights or walking on a
treadmill) that did not simulate significant threats or hazards and
provoke or cause an unusually high level of alarm, fear, or anxiety, as
required by the regulations. In other cases, OJP denied claims because
officers prepared the training or observed participants in a training
session but did not engage in the training activities.

Cases Involving Officers Who Responded to a Call: Potentially Narrow
Interpretation of the Act

        Nineteen of the 65 denied claims involved cases in which a public
safety officer had responded to a call. According to the OJP claim
determinations, the claims involved officers who suffered a heart attack
or stroke: (1) before arriving at the scene, (2) after responding to a false
alarm, (3) after responding to a call where they did not conduct any
activities at the scene, (4) after responding to a call where they did not
conduct any “law enforcement, fire suppression, rescue, hazardous
material response, emergency medical services, prison security, disaster
relief, or other emergency response” activities at the scene, or (5) after
responding to a call where they conducted activities at the scene that
were not considered stressful or strenuous. 43

       OJP evaluated the 19 claims using a narrow interpretation of the
Hometown Heroes Act. OJP concluded that the claims did not have
enough evidence to show that the officer’s response to the emergency call
involved “nonroutine stressful or strenuous physical activity” or that the
officers’ activities after responding to the call qualified as “law
enforcement, fire suppression, rescue, hazardous material response,
emergency medical services, prison security, disaster relief or other
emergency response activity.” 44 Responses to emergency calls were not
automatically defined as “nonroutine” and OJP evaluated the evidence in
each claim to determine if the officers’ emergency response activities met

       43   42 U.S.C. § 3796 (k)(1)(A) (2006).

       44   42 U.S.C. § 3796 (2006).




U.S. Department of Justice                                                31
Office of the Inspector General
Evaluation and Inspections Division
the requirements of the Hometown Heroes Act and PSOB Program
regulations.

       However, after the first year of processing claims, OJP broadened
how it applied the definition of “nonroutine activities.” In October 2007,
the BJA issued a policy memorandum that stated that any response to
an emergency call was to be considered “nonroutine.” 45 The
memorandum also stated that claims were to be reviewed based more on
how stressful or strenuous an activity was and less on the frequency
with which it was performed. Further, no activity was to be considered
routine based solely on the public safety agency’s description of the
activity as being “routine” or “ordinary.” The PSOB Director told us that
the policy was instituted as a result of the experience gained after a year
of processing claims. She said that OJP realized that responding to an
emergency call should be automatically defined as “nonroutine.” These
19 denied claims were decided prior to issuance of the October 2007
memorandum.

       After issuance of the policy memorandum, the Director of the
PSOB Office told us that the revised policy had resulted in more
approved claims. The Director further stated that she intended to call
each claimant whose Hometown Heroes Act claim had been denied prior
to issuance of the clarification and whose claim was not already in the
appeals process, to inform the claimant of the new policy. OJP also
waived the standard appeal deadline of 33 days after notice of denial to
allow these claimants to appeal the denied claims if they chose.

      Our examination of the determinations after the policy change
confirmed that the number of approved claims increased after the change
in the policy. Prior to October 2007, OJP denied 58 of 72 claims and
approved 14. In comparison, during the first 2 months of FY 2008, OJP
issued another 40 determinations, denying 7 claims and approving 33. 46

       45  OJP OGC considers this policy direction a “rebuttable presumption.”
Domingo Herraiz, Director, Bureau of Justice Assistance, Public Safety Officers’
Benefits Program Policy Memorandum, re: “Nonroutine Stressful or Strenuous Physical
Activity,” October 2, 2007.

       46  Our review of the claims determinations indicated that the increase in
approvals after October 2007 may not be solely attributable to the policy change. Only
8 of the 33 approved claims (and none of the 7 denied claims) involved officers
responding to a call that had similar circumstances to the 19 denied claims mentioned
above. These eight approved claims involved officers who suffered a heart attack or
stroke before arriving at the scene, after responding to a false alarm, or after arriving on
the scene and not conducting any activities. The remaining 25 approved claims had
evidence showing that the public safety officer engaged in law enforcement, fire
                                                                                      (Cont.)

U.S. Department of Justice                                                               32
Office of the Inspector General
Evaluation and Inspections Division
      Additionally, we reviewed Hearing Officers’ reports from the four
appeals that were completed after the issuance of the October 2007
memorandum. 47 These four appealed claims were among the 19 denied
claims involving officers who responded to calls. Hearing Officers
recommended approvals for all four claims, and the BJA Director
concurred with the approvals. 48

       Table 3 on the next page summarizes OJP’s stated reasons for
denying the 65 claims, and Appendix VII provides additional details on
the officers’ activities as described in the claim determinations.




suppression, rescue, hazardous material response, emergency medical services, prison
security, disaster relief, or other emergency response activities that were considered
“nonroutine stressful or strenuous” and were not based on the broader application of
the definition in the October 2007 memorandum.

       47  As of November 29, 2007, 30 of the 65 claims that OJP determined were not
compensable had been appealed to a Hearing Officer. Hearing Officers had completed
reviews of 4 of the 30 appeals.

       48 During the appeal hearings, claimants had the opportunity to present

additional or new evidence and call witnesses. For example, one claimant had 14
witnesses that testified to the fire response activities, the severe weather conditions that
hampered the fire response, or the stressful and strenuous nature of the fire response.


U.S. Department of Justice                                                              33
Office of the Inspector General
Evaluation and Inspections Division
           Table 3: OJP’s Reasons for Denying Completed Claims

                                                                                     Number of
                               Reasons for Denial
                                                                                      Claims

CASES THAT DID NOT MEET BASIC CRITERIA                                                  10

Not a public safety officer                                                             5

Not on duty the 24 hours prior to heart attack or stroke                                4

Activities were not conducted in line of duty                                           1

CASES INVOLVING OFFICERS WHO DID NOT RESPOND TO A CALL                                  27

Conducted only administrative duties                                                    6
Did not respond to a call and was not engaged in fire suppression, responding to
                                                                                        15
a fire, rescue emergency or situation, police emergency or situation, or training
Did not respond to a call – conducted regular correctional duties                       2

Did not respond to a call – conducted regular patrol or traffic stop                    4

CASES INVOLVING TRAINING                                                                9

Participated in routine, non-stressful, non-strenuous training activities               7
Prepared and tested a fire training maze, which was routine and not stressful or
                                                                                        1
strenuous
Observed participants in a training session but did not engage in activity              1

CASES INVOLVING OFFICERS WHO RESPONDED TO A CALL                                        19
Responded, but had heart attack or stroke while getting ready to respond or
                                                                                        4
before arriving at scene
Responded, but did not conduct any activities at the scene                              3

Responded, but conducted supervisory duties or no physical activities.                  2
Call responded to was not an emergency or the officer did not conduct any law
                                                                                        3
enforcement or emergency activities
Call responded to was a false alarm, or the officer was told to turn around or did
                                                                                        5
not proceed
Activities performed were routine and not stressful or strenuous                        2
Total                                                                                   65
Source: PSOB claim determinations




   U.S. Department of Justice                                                           34
   Office of the Inspector General
   Evaluation and Inspections Division
Approved Claims

       We also reviewed OJP’s determinations for the 47 approved claims
to identify activities that OJP determined to be the type of “nonroutine
stressful or strenuous physical activity or training” covered by the
Hometown Heroes Act. The following four synopses are presented as
examples that illustrate the types of activities performed by public safety
officers in the approved claims:

       •   A firefighter participated in training that involved survival skills
           and the agency’s first “air consumption drill.” During the
           training, he wore full protective gear and a self-contained
           breathing apparatus. The firefighter brought an injured
           colleague out of the building, removed a firefighter from a hole
           in the floor, participated in search and ventilation simulations,
           climbed stairs, and carried fire hoses. He then completed four
           laps of the course until his low air pressure alarm sounded.
           Later the firefighter complained of not feeling well and was
           transported to a medical facility, where he was pronounced
           dead as a result of a heart attack.

       •   A police officer and aid workers were dispatched to a residence
           of a diabetic male with a history of aggressive behavior toward
           medical responders and law enforcement officers in treatment
           situations. The officer arrived at the scene first and asked for
           backup assistance once he was in the bedroom. He then
           pushed the emergency distress button on his radio. A struggle
           between the officer and man could be heard over the radio.
           The officer stated that the subject had a gun, but that he had
           managed to get the individual in handcuffs. Additional law
           enforcement officers entered the room, observed signs of a
           struggle, and found the officer unconscious on the bed. After
           being transported to a hospital, the officer was pronounced
           dead as a result of a heart attack.

       •   Less than 2 minutes after receiving a call, a firefighter
           responded in full “turn-out” gear to a house fire. He
           immediately helped breach the first floor walls to expose the
           fire and then extinguished the flames. The firefighter later
           collapsed and was transported to a hospital, where he was
           pronounced dead as a result of a heart attack.

       •   An emergency medical technician (EMT) responded to two calls
           during his shift: a fire alarm in a commercial building and an


U.S. Department of Justice                                                 35
Office of the Inspector General
Evaluation and Inspections Division
           auto accident with entrapped individuals. At the site of the
           accident, the EMT extracted a passenger from the vehicle and
           collapsed when helping load the passenger into the ambulance.
           The EMT was transported to a hospital, where he was
           pronounced dead as a result of a heart attack.




U.S. Department of Justice                                           36
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


       OJP took 33 months to develop implementing regulations and was
slow in processing submitted claims. As a result, it had completed only
112 (38 percent) of the 291 Hometown Heroes Act claims it had received
as of November 29, 2007. After the updated PSOB Program regulations
became effective, OJP’s slow progress in completing determinations for
Hometown Heroes Act claims during the first year continued because of
inefficiencies in the claims review process. The inefficiencies included
lengthy legal reviews of claims and multiple requests for additional
documents by OJP OGC, no established timeframes for attorney reviews,
no formal method of recording attorneys’ requests for information,
incomplete claims submissions, and delayed pathology reviews that
prevented timely assessments of claims.

       In the fall of 2007, the BJA initiated several actions designed to
expedite the claims review process. For example, the BJA awarded
grants to public safety officer associations that formed teams to help
deceased officers’ families and public safety agencies submit more
complete PSOB claim. The BJA also began developing more user-friendly
guidance for PSOB claimants and agencies and began forgoing requests
for information from claimants and agencies that is not critical to a claim
determination. Although we could not fully determine the effect of the
OJP initiatives because they were implemented near the conclusion of
our field work, early evidence suggests that the timelines of claims
processing has improved. For example, while OJP issued determinations
on 72 claims during all of FY 2007, in the first 2 months of FY 2008, it
issued determinations on 40 claims.

       Our review of OJP’s completed claim determinations showed that
OJP initially denied most claims based on an evaluation of the stressful
and strenuous nature of the physical activity or training exercise.
However, in some cases OJP used a narrow definition of what qualified
as “nonroutine” for evaluating and denying the claims. In October 2007,
OJP issued a policy change that implemented a broader definition that
considers all emergency calls as “nonroutine.” The PSOB Director told
us that OJP made this change based on a year of experience processing
claims and recognizing the need to clarify the definition of “nonroutine.”
Since this policy change, more claims have been approved, and OJP has
notified past claimants of the changed standards to allow them to appeal
their denials.




U.S. Department of Justice                                              37
Office of the Inspector General
Evaluation and Inspections Division
       To further improve management of the Hometown Heroes Act
claims process, we recommend that the BJA and OJP OGC take the
following actions:

       1. The BJA should finalize the “Attorney General’s Guide to the
          Hometown Heroes Act.”

       2. The OJP OGC staff attorneys should use the PSOB Office case
          management system to record their case notes, requests for
          documentation, and other case-related communication with the
          PSOB Office.

       3. OJP OGC should establish more definitive performance
          timelines for attorneys’ reviews of PSOB claims to facilitate
          claims processing.




U.S. Department of Justice                                                38
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX I: The Hometown Heroes Survivors
                        Benefits Act of 2003




U.S. Department of Justice                               39
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            40
Office of the Inspector General
Evaluation and Inspections Division
                 APPENDIX II: PSOB Death Claim Forms




U.S. Department of Justice                             41
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            42
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            43
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            44
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX III: PSOB Program Appeals Process


      The PSOB Program provides three levels of appeal for denied
claims: Hearing Officer, BJA Director, and judicial. A claimant has 33
days from the date of the notification of determination to appeal a denial
decision in writing to the PSOB Office. The BJA Director may grant a
waiver of the 33-day response time if the claimant can show why the
deadline could not be met.

Hearing Officer

       The first level of appeal is to a Hearing Officer who arranges the
date, time, and location of a hearing with the claimant. The claimant can
present new evidence at this hearing. Once the hearing is completed, the
Hearing Officer reviews all case file information and evidence, and then
presents a report with an opinion on the claim to the BJA Director and
OJP OGC.

BJA Director

        Up to 33 days after the claimant is notified that a denial appeal
was upheld by the Hearing Officer, the claimant has the right to appeal
to the second level, the BJA Director. The BJA Director reviews the case
file, any new evidence, consults with OJP OGC, and makes a
determination on the appeal.

Judicial

       After a claimant has exhausted the administrative levels of appeal,
the claimant can appeal judicially to the U.S. Court of Appeals for the
Federal Circuit under 28 U.S.C. 1491(a).




U.S. Department of Justice                                              45
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX IV: Demographics From Completed
                   Hometown Heroes Act Claims


      The decedents in the 112 completed claims came from throughout
the United States, and the majority worked for fire departments. Table 4
displays demographic information about the decedents and Figure 5
displays the type of public safety agencies in which the decedents
worked.

       Table 4: Demographics of Completed Hometown Heroes
                Act Claims as of November 29, 2007

                                                  Number    Percentage
           Age of Decedent         Median Age          51
                                 Range of Ages    24 - 78

          Gender of Decedent             Male        111        99.1%
                                       Female          1         0.9%

           Cause of Death         Heart Attack       105        93.8%
                                        Stroke         6         5.4%
                                  Not Specified        1         0.9%
          Source: PSOB claims determinations




U.S. Department of Justice                                               46
Office of the Inspector General
Evaluation and Inspections Division
      Figure 5: Types of Public Safety Agencies From Completed
        Hometown Heroes Act Claims as of November 29, 2007


                                      7%
                          11%

                         2%


                    13%                                     53%




                              14%

               Fire                          Police
               Sheriff                       Emergency Services
               Other                         Emergency Services & Fire

   Note: The “Other” category includes agencies such as the National Park Service,
   corrections systems, and local wildlife departments.
   Source: PSOB claims determinations




U.S. Department of Justice                                                           47
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX V: Staffing for the PSOB Program


              Table 5: Staffing and Duties for the PSOB Office and Office of
                       General Counsel as of September 30, 2007

                                             Number of
                                             On-Board
                                  On-          Staff
                  Position       Board       Reviewing                         Duties
                                 Staff        Claims
                                             (Hometown
                                             Heroes Act)
PSOB Office    Director            1             1         (1) Manages the PSOB Program and staff;
                                                           (2) Reviews all case files and may edit draft
                                                           determinations before they are sent to OGC
                                                           for legal review;
                                                           (3) Presents information about the PSOB
                                                           Program in various public safety forums and
                                                           communicates directly with claimants if they
                                                           ask to speak to her or make a complaint; and
                                                           (4) Acts as the Chief of Staff/Deputy Counsel
                                                           for the BJA Director (estimates that 60 to 70
                                                           percent of time is devoted to the PSOB
                                                           Program).
               Senior Benefits     3             3         (1) Performs the same duties as the Benefits
               Specialist                                  Specialists; and
                                                           (2) Reviews case files and may edit the draft
                                                           determinations prepared by the Benefits
                                                           Specialists or fellow Senior Benefits
                                                           Specialists.
               Benefits            3             1         (1) Reviews claim applications and identifies
               Specialist                                  any missing documentation or forms;
                                                           (2) Contacts claimants and public safety
                                                           agencies to request information and
                                                           documents;
                                                           (3) Analyzes the documentation to make a
                                                           provisional determination on claims; and
                                                           (4) Drafts determinations explaining the facts
                                                           of the cases and reasoning for their decisions.
               Paralegal           1             0         Works exclusively on appealed PSOB claims
               Specialist                                  and arranges claimant hearings, tracks
                                                           appeals, and acts as a liaison between the
                                                           BJA and the contractor Hearing Officers.
               Administrative      1             0         (1) Logs every new claim application into a
               Assistant -                                 PSOB database;
               Control Desk                                (2) Assigns a claim number; and
                                                           (3) Places the application into a case file.




       U.S. Department of Justice                                                             48
       Office of the Inspector General
       Evaluation and Inspections Division
                                              Number of
                                              On-Board
                                  On-           Staff
                   Position      Board        Reviewing                         Duties
                                 Staff         Claims
                                              (Hometown
                                              Heroes Act)
                General            1              1         (1) Oversees and manages OGC; and
Office of the   Counsel                                     (2) May review claims or offer legal advice to
General                                                     attorneys working on claims.
Counsel
                Deputy General     4              2         (1) One Deputy General Counsel spends
                Counsel                                     about 50 percent of her time on the PSOB
                                                            Program and reviews each PSOB case file
                                                            after it is reviewed by an attorney and before
                                                            it is returned to the PSOB Office.
                                                            (2) A second Deputy General Counsel acts as
                                                            an advisor to attorneys reviewing PSOB
                                                            claims and fills in for the other Deputy
                                                            General Counsel when needed.
                Staff Attorney     16             11        (1) Reviews all types of PSOB claims,
                                                            including death claims filed under the
                                                            Hometown Heroes Act;
                                                            (2) Edits draft determinations prepared by the
                                                            PSOB Office; and
                                                            (3) Requests additional documentation from
                                                            the claimant through the PSOB Office.
                                                            (Staff attorneys estimate that they spend 20
                                                            to 40 percent of their time reviewing PSOB
                                                            claims.)
                Contract           1              1         Conducts the same duties as staff attorneys
                Attorney                                    but works full time on Hometown Heroes Act
                                                            claims.
                Paralegal          2              0         (1) Logs all PSOB case files in and out of the
                Specialist                                  office;
                                                            (2) Assigns claims to attorneys; and
                                                            (3) Sometimes acts as a legal advisor to
                                                            Hearing Officers during the appeal process.
                                                            (4) Only one Paralegal Specialist is assigned to
                                                            the PSOB Program.
Contract        Pathologist        1              1         (1) Reviews the autopsy report, toxicology
Pathologist                                                 report, and any medical records from the
                                                            decedent’s physicians;
                                                            (2) Responds to a list of questions about the
                                                            case prepared by OJP OGC; and
                                                            (3) Prepares a report on the claim for OJP.




        U.S. Department of Justice                                                             49
        Office of the Inspector General
        Evaluation and Inspections Division
             APPENDIX VI: Factors That Affected the Update
                   of the PSOB Program Regulations


       The implementing regulations for the Hometown Heroes Act
became effective on September 11, 2006 – 2 years and 9 months after the
Act’s enactment on December 15, 2003. In addition to the time
consumed by the effort to define the terms “nonroutine stressful or
strenuous physical activity” and “competent medical evidence to the
contrary” (discussed in the Background section of the report), OJP’s
General Counsel told us that three other significant factors contributed
to the time it took to revise the program regulations.

Extensive Revision of PSOB Program Regulations

       The OJP General Counsel told us that he reviewed the original
PSOB Program regulations that were issued in 1977 and determined that
they needed to be completely rewritten because (1) Congress had passed
at least 18 amendments to the PSOB Act, creating inconsistent and
conflicting statutory language; (2) the original regulations were
convoluted, excessively wordy, and often just repeated the statute as
opposed to expanding on the legislation; and (3) the Hometown Heroes
Act introduced criteria that could not be incorporated into the existing
language of the regulation. The General Counsel estimated that
incorporating the necessary changes into the original program
regulations required 95 percent of the language to be revised, which
contributed to the time it took OJP to issue revised regulations.

Review Process for Proposed and Final Regulations

       In November 2004, OJP OGC began discussions with the
Department’s Office of Legal Policy to determine if the Office of
Management and Budget (OMB) would approve issuing an interim final
rule for the PSOB Program so that OJP could start processing the claims
it had received under the Hometown Heroes Act before the final
regulations were issued. 49 In January 2005, OGC sent a memorandum
to the Office of Legal Policy that presented the argument for publishing
an interim final rule. The Office of Legal Policy and OJP OGC discussed
the issue and decided that OMB would not likely approve an exemption

       49 An interim final rule is the issuance of a final rule (also called regulations)

without prior notice and comment, but with a post-promulgation opportunity for
comment. An agency then could revise the rule in the future based on the comments.
This type of rulemaking allows the agency to issue a rule quickly.


U.S. Department of Justice                                                             50
Office of the Inspector General
Evaluation and Inspections Division
to the public notice and comment requirements of the federal rulemaking
process. OJP decided to not request an interim final rule from OMB and
to proceed with the slower process of issuing proposed and final rules.
The Department’s review of OJP’s proposed PSOB regulations took a little
over a month, and the subsequent OMB review took almost 3 months. 50
For the final regulations, the Department’s and OMB’s reviews took the
same amount of time as the reviews of the proposed regulations. Overall,
the Office of Legal Policy and OMB reviews added approximately 8
months to the regulatory process.

2006 Legislation and Court Decisions

       The General Counsel told us that he postponed completion of the
final regulations for the PSOB Program because forthcoming new
legislation and court decisions would affect the program and the
proposed regulations had to be revised to reflect these developments. In
September 2005, the House of Representatives passed the Department of
Justice Reauthorization Act, which contained new amendments to the
PSOB Act. Because it appeared likely that the law would be enacted
before the end of that year, OJP OGC decided to wait to issue the PSOB
Program regulations until the law was passed and signed by the
President. That occurred in January 2006. The law made several
modifications to definitions within the PSOB Act and required OJP to
change and clarify the final regulations. In addition to the legislation,
two U.S. Court of Federal Claims decisions issued on July 27, 2006, and
August 2, 2006, changed other definitions in the regulations and
required OJP OGC to amend the preamble to the final rule. 51




       50 The Administrative Procedures Act requires that new or updated regulations
be reviewed and approved by both the agency promulgating them and by OMB before
the regulations are published in either proposed or final form.

       51 LaBare v. United States, 72 Fed. Cl. 111 (2006), and Groff v. United States,

72 Fed. Cl. 68 (2006).


U.S. Department of Justice                                                           51
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX VII: Public Safety Officers’ Activities
                as Described in Claim Determinations


       As of November 29, 2007, OJP had made a total of 112 claim
determinations, of which 47 were approvals and 65 were denials. Fifty-
five of the 65 denied claims were denied because of a lack of evidence to
demonstrate the decedents engaged in “nonroutine stressful or
strenuous physical activity” as required by the Hometown Heroes Act.
The following table summarizes the 55 public safety officers’ on-duty
activities prior to their heart attack or stroke as listed in claims
determinations and categorizes the activities by “reason for denial.” The
remaining 10 of the 65 total denied claims are not included in the table
because these claims were denied based on other eligibility requirements
that did not require OJP to consider the nature of the officers’ activities.

      Table 6: Public Safety Officers’ Activities in Denied Claims

       Reason for Denial                                 Activities
The public safety officer             Claim 1:
conducted administrative              • Conducted administrative duties and attended
duties only.                            meetings during his shift
                                      • During the last meeting, made a presentation
                                        and appeared to be short of breath
                                      • After the meeting was over he returned home
                                        where he experienced shortness of breath and
                                        complained of chest pain and was transported
                                        to the hospital
                                      • Not on duty the day before
                                      Claim 2:
                                      • Worked a regular shift involving only
                                        administrative duties
                                      • Did not engage in any strenuous activity and
                                        died the following morning
                                      Claim 3:
                                      • Attended a short meeting while on duty
                                      • Returned to his office and resumed his daily
                                        tasks
                                      • Yelled to the secretary that something was
                                        wrong and that he could not see
                                      • Emergency medical responders stated that it
                                        appeared he was having a stroke




U.S. Department of Justice                                                  52
Office of the Inspector General
Evaluation and Inspections Division
       Reason for Denial                                    Activities
The public safety officer             Claim 4:
conducted administrative              • Attending a shift briefing when he fell to the
duties only.                            floor, hit his head, shook, and had difficulty
                                        breathing
                                      • Had only conducted administrative duties in the
                                        24 hours prior to the heart attack
                                      Claim 5:
                                      • Conducted administrative duties as a member of
                                        the warrant squad
                                      • Logged new warrants and criminal summons,
                                        updated the database for warrants, and served
                                        three summonses, which involved driving to
                                        residences and having individuals sign forms
                                      • Had approved leave to work as uniformed
                                        security at a bank that night
                                      • Started work back at the station at 4 a.m. the
                                        next day and told others that he was going to
                                        focus on paperwork all day
                                      • Not seen after 4:30 a.m. and was found dead
                                        approximately 16 hours later at 8:45 p.m. that
                                        evening
                                      Claim 6:
                                      • Conducted administrative duties and did not
                                        respond to any calls for service in the 24 hours
                                        prior to his death
The public safety officer did         Claim 7:
not respond to a call and was         • Received no calls during the day
not engaged in fire suppression       • Examined gear, conducted house duties, and
or a situation, a rescue or a           engaged in physical fitness
police emergency or response.         • Heard lifting weights and was later found
                                        unconscious next to the rowing machine
                                      Claim 8:
                                      • Reported to work after having several days off
                                      • Under some stress because of possible evidence
                                        irregularities
                                      • Discussed the issue with a co-worker, became
                                        agitated over the situation, and made several
                                        related phone calls
                                      • May have felt ill, went home, and later collapsed




U.S. Department of Justice                                                    53
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                  Activities
The public safety officer did         Claim 9:
not respond to a call and was         • Worked as a crew leader assisting citizens
not engaged in fire suppression         clearing land and chipping to reduce the fuel
or a situation, a rescue or a           load in case of a wildfire
police emergency or response.         • Activity was regularly provided to residents and
                                        did not involve a high level of physical exertion
                                      • Fell to his knees and lost consciousness while
                                        feeding trees into the chipper
                                      • No other activities or training prior to the
                                        clearing and chipping
                                      Claim 10:
                                      • Completed a walk test required by the
                                        department consisting of walking 1 mile in 16
                                        minutes or less
                                      • Completed the test in a little over 14 minutes
                                        and remarked that the test was taxing
                                      • Went home and collapsed
                                      • No other firefighter-related activity 48 hours
                                        prior to his death
                                      Claim 11:
                                      • Last shift started at 7 a.m. and ended 24 hours
                                        later
                                      • No calls for assistance during the shift and no
                                        activity other than an attempt to stop a fire
                                        hydrant from leaking
                                      • Conducted weight lifting and a treadmill
                                        workout during his shift
                                      • Stated that he was feeling ill and at home later
                                        that evening he had chest pains, trouble
                                        breathing, and lost consciousness
                                      Claim 12:
                                      • Performed general maintenance and inspected
                                        the building and department vehicles
                                      • Had complained of pain below the rib area when
                                        he arrived, but later said he felt fine
                                      • Took a break at 11 a.m. and was found shortly
                                        after slumped over on a couch
                                      • Had performed the same activities when on duty
                                        the day before




U.S. Department of Justice                                                    54
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                    Activities
The public safety officer did         Claim 13:
not respond to a call and was         • Part of a team inspecting a motorcycle outlet
not engaged in fire suppression       • Inspection involved examining every motorcycle
or a situation, a rescue or a           including its parts to determine if they had been
police emergency or response.           tampered with or stolen and examining all
                                        paperwork associated with each motorcycle
                                      • Seized seven motorcycles
                                      • Had a heart attack the next day while off duty
                                        and conducting yard work
                                      • Engaged in no other law enforcement activity
                                        within the 24-hour period prior to his death
                                      Claim 14:
                                      • Helped prepare the agency fire vehicles for a
                                        fellow firefighter’s funeral
                                      • Served as part of the honor guard and attended
                                        the wake
                                      • Next morning, he went to his regular place of
                                        employment at 5 a.m.
                                      • Made a stop at a local store on his way to the
                                        fire station that evening and collapsed in the
                                        store parking lot
                                      Claim 15:
                                      • Marched and played a bass drum during a
                                        parade representing the department
                                      • Stepped away from the procession and sat down
                                        on the porch of a residence
                                      • Got up to walk to a nearby ambulance and
                                        collapsed
                                      Claim 16:
                                      • Was on call the evening before and day of his
                                        heart attack
                                      • Covered the station for short periods of time
                                        while other officers responded to calls
                                      • Attended the department’s board of trustees
                                        meeting and was chatting with other members
                                        at the apparatus bay after the meeting when he
                                        began to feel ill and was transported to the
                                        hospital




U.S. Department of Justice                                                    55
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                   Activities
The public safety officer did         Claim 17:
not respond to a call and was         • Worked an overtime shift with no alarms
not engaged in fire suppression       • Called to cover the station 11 hours after
or a situation, a rescue, or a          finishing his shift because of an emergency
police emergency or response.           natural gas odor response – he did not respond
                                        to calls
                                      • Later participated in a basketball game and had
                                        a heart attack while sitting on a bench
                                      Claim 18:
                                      • Worked on morning maintenance on the
                                        station’s three trucks with another firefighter
                                      • This included a daily inspection of all equipment
                                        and apparatus, including removing and testing
                                        equipment
                                      • Transported two smoke detectors to another
                                        station so they could be installed at a residence
                                      • Returned and advised other firefighters that
                                        they needed to clean both vehicles
                                      • Stated that he would drive one of the vehicles up
                                        the road to blow off some water and had a heart
                                        attack and veered off the road as he was driving
                                        back
                                      Claim 19:
                                      • Worked a normal 10-hour shift
                                      • Participated in union contract negotiations
                                        throughout the day
                                      • Did not respond to any emergency calls within
                                        24 hours of the heart attack
                                      • Called the fire station from home indicating he
                                        was in medical distress and was transported to
                                        the hospital
                                      Claim 20:
                                      • Was on the way to the station when call was
                                        canceled
                                      • Assigned as standby at the station when
                                        another call came in for a refuse fire
                                      • Complained of feeling ill to his wife in the
                                        evening and found unresponsive in bed the next
                                        morning




U.S. Department of Justice                                                    56
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                   Activities
The public safety officer did         Claim 21:
not respond to a call and was         • Unloaded bingo supplies at the station prior to
not engaged in fire suppression         working the department’s weekly fundraiser
or a situation, a rescue, or a        • Complained of a severe headache, sat down on a
police emergency or response.           truck, and was then loaded into an ambulance
                                      • No calls for service in the 24 hours prior to the
                                        stroke
The public safety officer             Claim 22:
conducted regular correctional        • Worked 16 hours at a correctional facility
duties.                               • Assisted with food service and a pill call, made
                                        rounds, and worked the tunnel and industries
                                      • Died the next day at home
                                      Claim 23:
                                      • Engaged in routine activities, including
                                        searching and escorting prisoners and other
                                        related duties
                                      • Suffered a heart attack while driving home at
                                        the end of his shift
The public safety officer             Claim 24:
conducted a regular patrol or         • Last two shifts were routine, and he engaged in
traffic stop.                           usual road and foot patrol activities on his last
                                        shift
                                      • Next day began showing signs of cardiac stress
                                        while talking to co-workers
                                      Claim 25:
                                      • Conducted regular patrol checks and responded
                                        to reports of a couple arguing and teenage skate
                                        borders and bicyclists on campus property while
                                        on duty
                                      • Later collapsed while watching a training video
                                      Claim 26:
                                      • Responded to two calls in the 24 hours prior to
                                        his heart attack, one to assist and one in
                                        response to a report that a vehicle’s back
                                        window had been shattered
                                      • Approximately a week earlier, he had reported
                                        feeling dizzy during a routine traffic stop
                                      Claim 27:
                                      • Felt ill after completing a traffic stop on a
                                        routine patrol
                                      • Asked his partner to drive him back to the
                                        station and later to pull over so that he could
                                        remove his vest to breathe easier
                                      • Stepped out of the vehicle and collapsed
                                      •


U.S. Department of Justice                                                    57
Office of the Inspector General
Evaluation and Inspections Division
       Reason for Denial                                  Activities
The training was not                  Claim 28:
nonroutine and stressful or           • Participated in a training drill that included
strenuous.                              donning personal protective equipment and
                                        lifting and checking breathing equipment
                                      • Each apparatus weighed roughly 30 pounds
                                      • Had a heart attack after returning home
                                      Claim 29:
                                      • Started his shift early at approximately
                                        3:30 p.m. to participate in physical training
                                      • Suffered a heart attack at approximately
                                        4:15 p.m. the same day
                                      • Day before his death had been scheduled as a
                                        day off, but he helped escort property
                                        technicians from one city to a neighboring city
                                        and then returned home
                                      Claim 30:
                                      • Had passed his physical exam and was certified
                                        to attend the mandatory basic training academy
                                      • Engaged in warm-up exercises and then an
                                        indoor diagnostic run – during the 12th and
                                        final lap of the run, he collapsed
                                      Claim 31:
                                      • Drove to various addresses within the fire
                                        district as part of map training
                                      • In the afternoon, participated in pump operation
                                        training, but his activities were limited to
                                        checking the medical equipment and evaluating
                                        an electrical problem on the pumper
                                      • Later, did some yard work, ate a meal, and
                                        watched TV before having a heart attack
                                      Claim 32:
                                      • Attended an EMT assessment class
                                      • Given instruction on lifting and moving patients
                                        and practiced CPR on mannequins
                                      • Went home after the class and went to bed
                                      • At 6 a.m. the following morning, he was gasping
                                        for breath




U.S. Department of Justice                                                   58
Office of the Inspector General
Evaluation and Inspections Division
       Reason for Denial                                    Activities
The training was not                  Claim 33:
nonroutine and stressful or           • Traveled to attend training
strenuous.                            • Morning consisted of classroom training
                                      • Afternoon was reserved for networking where
                                        participants were encouraged to engage in
                                        physical activity and the officer took a hike with
                                        others
                                      • Collapsed on the trail
                                      Claim 34:
                                      • Participating in a class at a correctional facility
                                      • Collapsed while attempting to plug in a fan
                                        behind some training mats
The public safety officer             Claim 35:
prepared and tested a fire            • Prepared and tested a fire training maze
maze.                                 • Conducted trial run of the maze and then
                                        collapsed upon completion
The public safety officer             Claim 36:
observed participants in a            • Observed new hire testing on Saturday
training session.                     • Helped set up several testing stations and
                                        visited stations to check on participant
                                        performance
                                      • Only one call occurred over the weekend and he
                                        did not respond
                                      • Following Monday a medical call was dispatched
                                        to the officer’s residence where he was found in
                                        cardiac arrest
The public safety officer had a       Claim 37:
heart attack or stroke while          • Reported that he was going to respond to a
getting ready to respond to a           vehicle accident from his residence using his
call or before arriving at the          personal vehicle at 8:29 p.m.
scene.                                • Found unconscious in his vehicle a few minutes
                                        later
                                      • During the 24 hours prior, worked the 4 p.m. to
                                        midnight shift performing administrative duties,
                                        manning the volunteer station, and filling out
                                        paperwork




U.S. Department of Justice                                                      59
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                   Activities
The public safety officer had a       Claim 38:
heart attack or stroke while          • Received a call concerning a residential fire at
getting ready to respond to a           approximately 1:00 a.m.
call or before arriving at the        • Donned his equipment and collapsed as he was
scene.                                  getting into the driver’s seat of one of the fire
                                        vehicles
                                      • Two days before, responded to three calls for
                                        service
                                      • For two calls, arrived after the other fire vehicles
                                        had left, and he was not needed
                                      • For the third call, involving a vehicle accident
                                        with no injuries, remained there on standby
                                      Claim 39:
                                      • Responded to an explosion and fire in a
                                        residence’s detached garage that was less than a
                                        mile from his home
                                      • Collapsed as he was getting out of his car
                                      • This is the only work activity that he performed
                                        in the 24 hours prior to his death
                                      Claim 40:
                                      • Worked a 24-hour shift that began at 7 a.m.
                                      • Engaged in “routine firehouse duties” such as
                                        cleaning, studying, and checking the apparatus
                                      • Conducted his mandatory physical fitness
                                        training by using the running machine
                                      • During this activity, station received an alarm
                                      • Reported to his truck, but was told he was not
                                        needed and collapsed soon after
The public safety officer             Claim 41:
responded to a call, but did not      • Dispatched from his residence to provide
conduct any activities or               backup
actions.                              • Arrived when the suspect was already in
                                        custody and he helped secure the scene, went to
                                        breakfast, and then went home
                                      • Found a short time later in his bathtub
                                        unconscious




U.S. Department of Justice                                                      60
Office of the Inspector General
Evaluation and Inspections Division
       Reason for Denial                                     Activities
The public safety officer             Claim 42:
responded to a call, but did not      • Attended a training session that involved
conduct any activities or               viewing several police satellite scenarios and
actions.                                discussing law enforcement procedures and
                                        policies
                                      • After the training, received a call from his wife
                                        informing him that an ammonia pipeline break
                                        had occurred
                                      • Received permission to assist in the operations
                                      • Offered assistance at the scene, but none was
                                        needed
                                      • Returned home and collapsed on the front lawn
                                      Claim 43:
                                      • Responded to an EMS call the evening prior to
                                        his death
                                      • Other emergency responders were already on
                                        the scene, so he left without undertaking any
                                        actions
                                      • No other calls that day
                                      • Suffered a heart attack next day while driving
                                        and struck another vehicle when he crossed the
                                        center line
The public safety officer             Claim 44:
responded to a call, but only         • Worked for approximately 3.5 hours conducting
conducted supervisory duties            supervisory duties related to the set-up and
or no physical activities.              maintenance of a helicopter landing and take-off
                                        zone
                                      • Inspected the site and drove a truck
                                      • Went home at 1:15 p.m. and there were no other
                                        calls for his firefighter services that day
                                      • Was last seen alive that day at 11 p.m. and an
                                        ambulance was called the next morning
                                      Claim 45:
                                      • Worked on a prescribed burn plan and then
                                        responded to a wildfire on the day of his heart
                                        attack
                                      • At the scene, he walked the fire line, observed
                                        dozer operations and broadcasted the weather
                                      • Later found 45 feet inside the fire line, partially
                                        burned and grasping a fire tool
                                      • Determined he died of a heart attack before the
                                        fire reached his body and had not engaged in
                                        any fire suppression activities in the vicinity




U.S. Department of Justice                                                      61
Office of the Inspector General
Evaluation and Inspections Division
       Reason for Denial                                    Activities
The public safety officer             Claim 46:
responded to a call, but there        • Worked a 12-hour overnight shift
was no emergency, law                 • Responded to two calls not requiring police
enforcement action, or                  action
emergency response.                   • Completed the shift at 6 a.m. and that same
                                        morning an ambulance was dispatched to his
                                        house
                                      Claim 47:
                                      • Participated in normal activities and EMS calls
                                        during his 24-hour shift
                                      • Conducted an apparatus check, engaged in a
                                        patient transfer, transported a patient to the
                                        hospital, and possibly took part in physical
                                        fitness activity
                                      • Assisted with emergency medical care while
                                        transporting a patient to the hospital
                                      • Not involved in any fire incidents
                                      • Suffered a heart attack at the end of his shift
                                      Claim 48:
                                      • Responded to three calls
                                      • Two of the calls did not require agency resources
                                      • At the third call, he spread absorbent materials
                                        to soak up fluids after vehicle accident
                                      • Last seen alive that day at 11 p.m.
                                      • Found dead in his home the following day in his
                                        work clothes
The public safety officer             Claim 49:
responded to a call, but it was a     • Responded to a call regarding a vehicle fire
false alarm or the officer was        • En route, reported that the smoke was caused
told to turn around or did not          by leaking fluids instead of a fire and he
proceed.                                returned to his residence
                                      • This was the only call during the 24-hour period
                                        prior to the heart attack
                                      • Next day he went to work at his regular place of
                                        employment and then drove to his sister’s
                                        residence where he felt ill and an ambulance
                                        was called




U.S. Department of Justice                                                    62
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                   Activities
The public safety officer             Claim 50:
responded to a call, but it was a     • Responded in full turnout gear to an alarm that
false alarm or the officer was          turned out to be a false alarm
told to turn around or did not        • Returned to the station, completed some
proceed.                                paperwork, spoke with some colleagues, and
                                        went to his vehicle to drive home
                                      • Found unconscious in the car
                                      • Had responded to one other false alarm in the
                                        24 hours prior to his death
                                      Claim 51:
                                      • Began to respond to a call, but as fire engine
                                        was leaving the station, he was instructed not to
                                        proceed
                                      • Once the fire engine returned to the station, he
                                        fell out of the driver’s side jump seat
                                      • Had not been involved in any other response in
                                        the 24 hours prior to his heart attack
                                      Claim 52:
                                      • Had a heart attack while driving to his regular
                                        job in construction
                                      • Responded to only one 911 call the day before
                                        regarding the smell of smoke at a residence that
                                        was determined to be a false alarm
                                      Claim 53:
                                      • Responded to a call in his personal vehicle, but
                                        on the way, all units were advised to return to
                                        quarters
                                      • Went to a nearby EMS unit and stated that he
                                        was experiencing chest and arm pain
                                      • Paramedic conducted an EKG, which appeared
                                        normal, so the officer returned home and was
                                        later found unresponsive
The public safety officer             Claim 54:
responded to a call, but              • Responded to three medical alarms involving
activities were routine and not         routine activities and one vehicle accident with
stressful or strenuous.                 no injuries during an overnight shift that ended
                                        at 7 a.m.
                                      • At 2 p.m. that day, he traveled to the local
                                        junior high school where he was an assistant
                                        coach
                                      • Found at approximately 3:10 p.m. collapsed in
                                        the gym locker room




U.S. Department of Justice                                                    63
Office of the Inspector General
Evaluation and Inspections Division
        Reason for Denial                                  Activities
The public safety officer             Claim 55:
responded to a call, but              • Watched television after having returned from
activities were routine and not         several calls that were all documented as
stressful or strenuous.                 routine in nature
                                      • Started to have a seizure and then went into
                                        cardiac arrest




U.S. Department of Justice                                                   64
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX VIII: The Office of Justice Program’s Response




U.S. Department of Justice                                      65
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            66
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            67
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            68
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            69
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            70
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            71
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            72
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            73
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            74
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            75
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            76
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            77
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX IX: OIG’s Analysis of the Office of Justice
                       Program’s Response



      On March 5, 2008, the OIG sent a draft of this report to the Office
of Justice Programs (OJP) with a request for written comments. OJP
responded to the OIG in a memorandum dated March 18, 2008. The
OJP response (Appendix VIII of this report) included comments on the
findings of the OIG report, a list of statements in the OIG report that OJP
claimed are “mistaken or incomplete,” and OJP’s specific responses to
the recommendations.

     Although the OJP written response did not explicitly state
concurrence or non-concurrence with the recommendations, on
March 19, 2008, the OJP liaison confirmed that OJP agreed with all the
recommendations. Further, the OJP written response provides its
planned actions for implementing all the OIG’s recommendations.

       In this appendix, we address OJP’s commentary, OJP’s assertions
of factual inaccuracies, and the actions proposed by OJP to implement
the recommendations in our report.

OIG ANALYSIS OF OJP’S COMMENTS

      OJP agreed with our finding that a lack of documentation and
evidence from claimants contributed significantly to delays in processing
Hometown Heroes Act claims. OJP also agreed that claims were delayed
while OJP was searching for a new pathology contractor to conduct
medical reviews for the Public Safety Officers’ Benefits (PSOB) claims.
OJP’s response, however, disagreed with our finding that lengthy and
inconsistent legal reviews contributed to the slow processing of
Hometown Heroes Act claims. OJP’s response also took issue with our
findings regarding the legal reviews of the claims. We believe that OJP’s
response is not persuasive and is misleading.

       In general, OJP’s response stated that the OIG report does not
acknowledge that the lengthy legal reviews were necessary and
appropriate to address “often-complex factual, legal, and medical
information.” The OIG is well aware of the complexities and issues from
our review of claims determinations and discussions with both PSOB
Office and OGC staff that process Hometown Heroes Act claims, which
are detailed in the report. As described in our report, notwithstanding
the complex issues, the evidence demonstrated that in some cases the


U.S. Department of Justice                                              78
Office of the Inspector General
Evaluation and Inspections Division
legal reviews were untimely because of inefficient internal OGC practices,
questionable document requests, and OGC’s lack of timeliness standards
for its legal reviews. Also, we note that the excessive delays in
implementing the Hometown Heroes Act and in processing claims have
been already acknowledged in congressional testimony by the
Department. Regarding the time taken to begin processing claims, the
former Attorney General stated, “It’s taken us too long, and I apologize to
the families.” 52 OJP’s suggestion in its response that the delays were
reasonable is not supported by the evidence or the Department’s
position.

       Moreover, our analysis of the evolution of the PSOB Program and
the decisions on claims showed that OJP initially applied a narrow
interpretation of the Act’s requirement that a public safety officer’s
activities be “nonroutine stressful and strenuous” in denying 19 claims. 53
We note that OJP recently changed how it applies the term “nonroutine”
in evaluating PSOB claims and that it invited all previously denied
claimants to request an appeal. We also note that the first four denied
Hometown Heroes Act claims that had completed the first level of appeal
at the time of our review were overturned and approved.

      In the following paragraphs, we address in more detail each of
OJP’s specific comments.

Calculation of Time for OGC Legal Review

       The OIG disagrees with the OJP assertion that the OIG incorrectly
determined the time Hometown Heroes Act claims were in legal review.
The data available to the OIG was sufficiently complete and confirmed by
interviews with OJP staff, which supported the findings in the report. To
ascertain the time it took OGC to conduct legal reviews, we reviewed all
case notes contained in the PSOB Office database for each of the 112
completed Hometown Heroes Act claims. We were able to identify the
date a case file was sent from the PSOB Office to OGC and the date OGC


       52 U.S. Senate Committee on the Judiciary, Oversight of the U.S. Department of
Justice, 110th Cong., 1st sess., July 24, 2007.

       53  These 19 claims involved public safety officers that had suffered a heart
attack or stroke after responding to a call but before arriving at the scene, after
responding to a call that was a false alarm, after responding to a call and not
conducting law enforcement or emergency activities at the scene, or after responding to
a call and not performing any activity that involved great physical exertion at the scene.




U.S. Department of Justice                                                            79
Office of the Inspector General
Evaluation and Inspections Division
returned a case file in the vast majority (95) of the 112 claims. 54 In
addition, we were conservative in our estimates of the time taken for legal
reviews, and we did not include any information from the database
unless a PSOB Office staff member entered into the case notes a clear
statement that a case file had been sent to or returned from OGC.

      OGC also argued in its response that our estimate of the time
taken for legal reviews was incorrect because OGC attorneys do not use
the PSOB Office database and the database does not include any case-
logging information from OGC. We noted that OGC maintains a
spreadsheet that identifies where a PSOB case file is at any time, but the
dates in the “Received in OGC” and the “Returned to PSOB” columns are
overwritten every time the case file is moved in and out of OGC.
Consequently, the OIG could not use the OGC spreadsheet to estimate
the times for legal review of the Hometown Heroes Act claims. The OIG’s
estimate was based on an analysis of 85 percent (95 of the 112) of all the
claims that had been completed, using the most complete data available
in OJP, and we believe it is a valid portrayal of the time that OGC took to
conduct legal reviews of Hometown Heroes Act claims.

       OJP asserted that the only applicable standard for judging its
timeliness was the Attorney General’s 90-day deadline. We note that the
Attorney General’s standard is applicable to the entire PSOB Office’s
processing of claims, not OGC’s legal reviews. Nonetheless, our review
found that OGC’s legal review of at least 26 of the 95 cases for which
reliable data were available exceeded 90 days.

Allegation of Unwarranted Length of Time in Processing

      OJP‘s response that the majority of the Hometown Heroes Act
claims (75 percent) were processed by two OGC attorneys is not
consistent with the information provided to the OIG during our review.
We asked questions in several interviews with OGC staff about how

       54   OJP is incorrect in its assertion that our method led us to count as part of
the legal review process time it spent waiting for the PSOB Office to collect additional
evidence or information from claimants. OJP stated that because OGC sometimes held
case files while awaiting action by the PSOB Office, the OIG’s estimate wrongly included
the wait time as part of the legal review. However, during our fieldwork, we were told
that OGC did not retain case files after requesting that the PSOB Office collect
additional evidence or information. OGC returned the case files to the PSOB Office
because they contain evidence and contact information that Benefits Specialists need to
obtain additional material requested by OGC reviewers. As a result, while we counted
time spent waiting for additional documents or information in our overall estimate of
total claims processing time, we did not attribute that time to the legal review process.




U.S. Department of Justice                                                           80
Office of the Inspector General
Evaluation and Inspections Division
PSOB claims are assigned for legal review. In August 2007, the General
Counsel told us in an interview that he intentionally spread the PSOB
Program work among many attorneys so that they could all gain
experience and because death benefits claims are “depressing.” Also in
August 2007, the Deputy General Counsel stated that 11 OGC attorneys
worked on PSOB claims. She stated that while some attorneys have
more experience with the Hometown Heroes Act, all of the 11 attorneys
worked on Hometown Heroes Act claims. 55 Additionally in August 2007,
the OGC paralegal who assigns PSOB claims to attorneys told the OIG,
“There were [originally] only two attorneys working on the Hometown
Heroes Act claims, but now all the attorneys assigned to review claims
are working on the[se claims].”

       The OJP suggestion that reviewing the attorney signatures on the
Hometown Heroes Act claim determinations would show that the
majority of claims were reviewed by only a few OGC attorneys is
misleading. After receiving the OJP response, we reexamined the claims
determinations and confirmed that they contained only three signatures,
those of the PSOB Benefits Specialist who prepared the determination,
the PSOB Director who reviewed and approved the determination, and
the OGC attorney who concurred with the determination. This attorney’s
signature on the majority (64 of 112) of the Hometown Heroes Act claims
determinations was that of the Deputy General Counsel. As described to
us during our review, however, she did not conduct primary legal
reviews. According to the General Counsel, he had assigned the Deputy
General Counsel the responsibility to conduct a secondary review of all
PSOB claims to ensure consistency. According to the Deputy General
Counsel, the primary legal review was carried out by OGC staff and
contract attorneys, and she then examined their legal analyses for
consistency. That process was confirmed in all of our interviews, as OGC
staff told us that every PSOB case file was routed through the Deputy
General Counsel (or the attorney acting in her absence) for the secondary
review. Therefore, it does not appear that the OGC attorney signatures
on the claim determinations are those of the primary legal reviewers.

       The OJP statement that OGC attorney requests for documentation
did not lead to unnecessary delays is also not supported by our review of
the PSOB database or our interviews with PSOB Office and OGC staff.
Not all of the documents collected during the claims review process are
needed to begin the legal review. By waiting until all possible documents
are in hand, OGC unnecessarily delayed beginning its legal reviews. The

       55 In October 2007, the Deputy General Counsel told us that OGC had

increased the number of attorneys working on the PSOB claims to 12.


U.S. Department of Justice                                                   81
Office of the Inspector General
Evaluation and Inspections Division
OIG agrees that it is often important for OJP to request additional
information from claimants. We also agree that the example OJP gives is
one of those instances where it is important to request additional
information. In the OJP example, OJP requested information on a
decedent’s activities for a longer period than 24 hours prior to the
incident because OJP wanted to establish whether the onset of the
officer’s heart attack or stroke actually occurred earlier.

        However, some of the OGC requests for additional documentation
were made when the evidence already at hand should have enabled the
OGC attorney to proceed with the legal review of the claim, and in these
cases, the claims process was delayed unnecessarily. For example:

   •   Beneficiary Information – While it is OJP’s responsibility to identify
       all beneficiaries, documentation to establish each potential
       beneficiary’s eligibility (e.g., birth certificates, marriage licenses,
       divorce decrees) is not needed to begin evaluating whether the
       public safety officer’s death meets the criteria for the PSOB
       Program.

   •   State and Local Death Benefits – In some cases, OGC
       unnecessarily delayed reviewing cases pending the receipt of hard-
       copy documents to confirm claimants’ statements as to whether
       they had received state or local benefits. 56 In other cases, OGC
       asked the PSOB Office to obtain documentation on state or local
       benefits even though the state or locality where claimants resided
       did not provide benefits for death by heart attack or stroke. The
       Deputy General Counsel stated that OGC is no longer requesting
       this information for claims from those states or localities.

   •   Basic Program Criteria Determinations – In some cases, OGC
       requested additional documentation when the evidence already at
       hand showed that the claims clearly did not meet basic PSOB
       Program criteria. For instance, OGC sometimes requested 10
       years of medical records even though the evidence showed that the
       decedent was not a public safety officer or had not been engaged in
       line-of-duty activity and so was not covered by the PSOB Program.

Waiting until these types of documents are received before beginning
legal reviews unnecessarily delays claims processing and increases the

       56 While receiving such benefits does not affect the eligibility of a claimant

under the Hometown Heroes Act, it helps OGC establish that another authority
considered the public safety officer’s death to have been either in the line of duty or not.


U.S. Department of Justice                                                              82
Office of the Inspector General
Evaluation and Inspections Division
total processing time. Such delays contributed to OJP taking a median
of 10 months to process claims after the PSOB regulations were issued.

      OJP asserts in its response that it maintains the “substance of
much of the [OGC attorney’s] advice, commentary, requests for
information, and legal review” in electronically stored media. However,
that does not refute the OIG report finding that OGC has no formal
record-keeping system to document its attorneys’ actions on PSOB
claims. While OGC attorneys may keep their e-mails concerning their
reasoning and advice on PSOB claims, there is no formal system for
recording information requests in the hard-copy case file or case file
database. This informal process could lead to duplicative requests for
information. Further, OJP’s response conflicts with information it
provided to us during our review. As stated in the OIG report, the
Deputy General Counsel told us that she encourages attorneys to put
information requests and comments related to a claim in writing.
However, she said that communication with the PSOB Office was
informal and often occurred by telephone, e-mail, or in person.
Consequently, as we observed during our review, the PSOB case files
generally contained no record of an OGC request unless it was put in by
a PSOB Office staff member.

       The OJP assertion that our finding that OGC attorneys made
inconsistent edits on claims determinations is “unsupported by data”
does not address the issue that we raised. In our review of the claims
determination templates OGC created for use by the PSOB Office, we
noted instances in which different OGC attorneys made edits to the
templates that PSOB Office staff told us left them confused as to which
template version was current. Also, we saw instances in which draft
determinations were passed back and forth between the PSOB Office and
OGC numerous times to incorporate OGC edits, lengthening the time it
took to process claims. The fact that the claims determinations were
sometimes heavily edited was confirmed in interviews with both PSOB
Office and OGC staff. For example, the PSOB Office Director told us that
her staff was required to frequently revise documents based on what
appeared to be individual language preferences not affecting the
substantive legal issues. She told us that her office had stopped delaying
the claims determinations for stylistic changes. 57 In August 2007, the
Deputy General Counsel stated that she had directed the attorneys not
to make such stylistic changes unless it was necessary for legal

      57 Stylistic changes we observed included such things as changes to the

placement of bullets or the spacing of signature lines.




U.S. Department of Justice                                                      83
Office of the Inspector General
Evaluation and Inspections Division
sufficiency, although she claimed to us that the edits had not caused any
delays. 58

      Finally, in a footnote on page 3 of its response, OJP stated that the
OIG flowchart depicting the claims review process (Figure 1 on pages 11
and 12 of this report) “appears to miss whole steps.” The OJP response
provides as an example of an omitted step, stating that the box
representing the pathologist review does not contain a full and complete
explanation of the reasons for the pathologist’s review. The OJP
comment misconstrued the purpose of a flowchart, which is to present a
process in a succinct graphic form. A complete description of the role of
the pathologist appears in Table 5 in Appendix 5, Staffing for the PSOB
Program.

OJP’S CLAIMS OF FACTUAL INACCURACIES

       The OJP response listed nine statements or references in the OIG
draft report that it believes were mistaken or incomplete. We address
each of the nine matters below.

      1. Summary of OJP’s Statement: OJP stated that the OIG draft
report’s description of the October 2, 2007, Bureau of Justice Assistance
(BJA) policy memorandum as indicating that any response to an
emergency call should be considered nonroutine is an inaccurate
description. According to OJP, “the policy memorandum creates a
rebuttable presumption, specifically by providing that ‘[r]esponding to an
emergency call shall presumptively be treated as nonroutine.’"

      OIG Response: The OIG report provided a plain language
description of the meaning of the memorandum. However, to address
OJP’s point, we have added a footnote to explain, in legal terms, that OJP
considered the direction provided by the memorandum that “responding
to an emergency call shall presumptively be treated as nonroutine” as a
“rebuttable presumption.”

      2. Summary of OJP’s Statement: OJP questioned the accuracy of
the OIG draft report’s statement that “great physical exertion [i]s required

       58  In its response, OJP stated that the Deputy General Counsel’s comments
during the interview pertained to direction she gave the attorneys “literally years” before
OJP began processing Hometown Heroes Act claims in September 2006. However, our
August 2007 discussion with the Deputy General Counsel was specifically related to
OGC attorneys’ stylistic edits to the Hometown Heroes Act claims determinations in
2007, and she did not indicate that she was referring to directions she had given years
before the Act was implemented.


U.S. Department of Justice                                                             84
Office of the Inspector General
Evaluation and Inspections Division
by the regulations” because that exact term is not in the PSOB Program
regulations.

      OIG Response: The OJP response is correct that the exact
language does not appear in the PSOB Program regulations. Although
we maintain that our paraphrasing provided an accurate description of
the program requirements, to avoid confusion we changed the report to
read, “did not involve ‘nonroutine stressful or strenuous physical activity’
as required by the regulations.”

       3. Summary of OJP’s Statement: OJP stated that “[o]n pages 1 -
2, to the extent the bridge paragraph of the OIG Draft Report is intended
to provide an accurate legal description of the HHA provisions, it is
abbreviated and conflates several statutory requirements, and thus is
inaccurate.”

      OIG Response: We reviewed our description of the Act on pages 1,
2, and 3 of the Background section of this report and believe it provides
an accurate, plain language description of the Act.

       4. Summary of OJP’s Statement: The OJP response stated that
“the first sentence of the second full paragraph [on page 3 of] the OIG
Draft Report is inaccurate” because the criteria discussed in that
paragraph (“nonroutine stressful or strenuous physical activity” and
“competent medical evidence to the contrary”) are not the only criteria for
determining whether a claim would be eligible for compensation.

       OIG Response: The OIG report is clear that those are not the only
two criteria. The full criteria are discussed immediately preceding the
paragraph in question. However, the paragraph at issue (on page 3 of
this report) focuses on OJP’s definition of the two specific terms that had
raised congressional concerns after the Act’s implementation.

       5. Summary of OJP’s Statement: OJP stated that the OIG report
definitions of “nonroutine stressful physical activity” and “nonroutine
strenuous physical activity” on pages 5 and 6 do not match the language
of the regulations and “to that extent are erroneous.” OJP also stated
that the OIG’s definitions “may have been intended to incorporate
notions that inform a BJA policy memorandum of October 2, 2007”
regarding the interpretation of “nonroutine.” OJP stated the
memorandum “does not purport to create a definition of nonroutine.”
Instead, OJP stated, the memorandum “provides guidance on how to
evaluate evidence relating to whether an activity may be nonroutine.”



U.S. Department of Justice                                               85
Office of the Inspector General
Evaluation and Inspections Division
      OIG Response: The OIG report’s description of “nonroutine
stressful and strenuous physical activity” is not a verbatim quote of the
regulations and presents the regulatory language in plain terms.

      6. Summary of OJP’s Statement: The OJP response stated that
the OIG report’s discussion (page 6) of OJP’s coordination with the
Armed Forces Institute of Pathology (AFIP) to define the term “competent
medical evidence to the contrary” is incomplete because OJP also
“consulted extensively with other medical-, public safety-and vocational
experts.”

       OIG Response: That information actually was presented on page 3
of the report in the introductory paragraph of the section to which OJP
referred.

       7. Summary of OJP’s Statement: The OJP response stated that
the OIG report’s description of the “PSOB Program beneficiary hierarchy”
in footnote 24 on page 8 and the citation for the Mychal Judge Act are
incorrect. OJP stated that the Department of Justice Appropriations
Authorization Act of 2005 amended the Mychal Judge Act provisions
regarding the statutory order of death beneficiaries for the PSOB
Program.

       OIG Response: We revised footnote 24 on page 8 of this report to
reflect the changes made by the Department of Justice Appropriations
Authorization Act of 2005 by adding “the individual designated as
beneficiary by the public safety officer at their agency or organization” to
the roster of beneficiaries.

       8. Summary of OJP’s Statement: The OJP response stated: “To
the extent that the second paragraph on page 9 of the OIG Draft Report
suggests that a claimant ‘has the opportunity to present new or
additional evidence’ only ‘[d]uring a hearing,’ it is inaccurate. At each
level of administrative appeal, the claimant has the opportunity to
provide additional evidence and argument.”

       OIG Response: The OJP response misquotes the OIG report. We
did not state that the claimant can “only” present new evidence to the
hearing officer. Further, the section cited by OJP refers the reader to the
full description of the appeal process found in Appendix III of this report.
This appendix clearly states that claimants can present new evidence at
each administrative level of the appeal process.




U.S. Department of Justice                                               86
Office of the Inspector General
Evaluation and Inspections Division
       9. Summary of OJP’s Statement: The OJP response noted that
the Department of Justice Appropriations Authorization Act of 2008, signed
into law on December 26, 2007, changed the court of jurisdiction for
appeals beyond the administrative level from the U.S. Court of Federal
Claims to the Court of Appeals for the Federal Circuit. 59

      OIG Response: We updated Appendix III of this report to reflect
the new legislation.

RECOMMENDATIONS

     Recommendation 1: The BJA should finalize the “Attorney
General’s Guide to the Hometown Heroes Act.”

       Status: Resolved – Open

      Summary of OJP’s Response: OJP agreed with this
recommendation and stated that the BJA will work with the Department
of Justice to finalize the “Attorney General’s Guide to the Hometown
Heroes Act.”

      OIG Analysis: As discussed in the report, the BJA is in the final
phase of editing the “Attorney General’s Guide to the Hometown Heroes
Act.” Please provide the OIG with a copy of the final guide when
published or a status report on the guide by June 30, 2008.

      Recommendation 2: The OJP OGC staff attorneys should use the
PSOB Office case management system to record their case notes,
requests for documentation, and other case-related communication with
the PSOB Office.

       Status: Resolved – Open

       Summary of OJP’s Response: OJP agreed with the
recommendation and stated that the OGC attorneys and the PSOB Office
will use the system when it is “sufficiently developed and operational.”

      OIG Analysis: By June 30, 2008, please provide the OIG with the
status of OJP’s implementation of the new PSOB case management
system and a copy of the guidance directing attorneys to use the system.

       59 The OJP response acknowledged that 28 C.F.R. § 32.55(a), which was the

source of the OIG’s report language, is no longer accurate and must be amended.




U.S. Department of Justice                                                         87
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 3: OJP OGC should establish more definitive
performance timelines for attorneys’ reviews of PSOB claims to facilitate
claims processing.

       Status: Resolved – Open

       Summary of OJP’s Response: OJP agreed with this
recommendation and stated that the PSOB Office will send a draft claim
determination on the claim to OGC within 30 days of receipt of all
necessary information and identification of all potential beneficiaries.
OGC will complete its review and forward its recommendations to the
PSOB Office for execution within 45 days of receipt of a complete PSOB
claim.

      OIG Analysis: By June 30, 2008, please provide the OIG with the
status of OJP’s implementation and tracking of performance under these
standards.




U.S. Department of Justice                                             88
Office of the Inspector General
Evaluation and Inspections Division
